<html>
<title> - OVERSIGHT OF THE PIPELINE SAFETY, REGULATORY CERTAINTY, AND JOB CREATION ACT OF 2011 AND RELATED ISSUES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                   OVERSIGHT OF THE PIPELINE SAFETY,
 REGULATORY CERTAINTY, AND JOB CREATION ACT OF 2011 AND RELATED ISSUES

=======================================================================

                                 HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON ENERGY AND POWER

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 14, 2015

                               __________

                           Serial No. 114-67
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
                                ___________
                                
                          U.S. GOVERNMENT PUBLISHING OFFICE
97-940				   WASHINGTON : 2016                          
_________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1c7b6c735c7f696f687479706c327f737132">[email&#160;protected]</a>  
                    
                    
                    
                    
                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Ohio                   JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                     Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota
                    Subcommittee on Energy and Power

                         ED WHITFIELD, Kentucky
                                 Chairman
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               JERRY McNERNEY, California
JOSEPH R. PITTS, Pennsylvania        PAUL TONKO, New York
ROBERT E. LATTA, Ohio                ELIOT L. ENGEL, New York
GREGG HARPER, Vice Chairman          GENE GREEN, Texas
DAVID B. McKINLEY, West Virginia     LOIS CAPPS, California
MIKE POMPEO, Kansas                  MICHAEL F. DOYLE, Pennsylvania
ADAM KINZINGER, Illinois             KATHY CASTOR, Florida
H. MORGAN GRIFFITH, Virginia         JOHN P. SARBANES, Maryland
BILL JOHNSON, Ohio                   PETER WELCH, Vermont
BILLY LONG, Missouri                 JOHN A. YARMUTH, Kentucky
RENEE L. ELLMERS, North Carolina     DAVID LOEBSACK, Iowa
BILL FLORES, Texas                   FRANK PALLONE, Jr., New Jersey (ex 
MARKWAYNE MULLIN, Oklahoma               officio)
RICHARD HUDSON, North Carolina
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     1
    Prepared statement...........................................     2
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     3
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     5
    Prepared statement...........................................     6
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     7

                               Witnesses

Stacy Cummings, Interim Executive Director, Pipeline and 
  Hazardous Materials Safety Administration......................     8
    Prepared statement...........................................    11
Stan Wise, Commissioner, Georgia Public Service Commission (on 
  behalf of the National Association of Regulatory Utility 
  Commissioners).................................................    56
    Prepared statement \1\.......................................    58
Donald Santa, President and CEO, Interstate Natural Gas 
  Association of America.........................................    75
    Prepared statement...........................................    77
Ron Bradley, Vice President of Gas Operations, PECO Energy (on 
  behalf of the American Gas Association)........................    84
    Prepared statement...........................................    86
Andrew Black, President and CEO, Association of Oil Pipe Lines...   103
    Prepared statement...........................................   105
Carl Weimer, Executive Director, Pipeline Safety Trust...........   116
    Prepared statement...........................................   118
Dianne Black, Assistant Director of Planning and Development, 
  County of Santa Barbara, California............................   138
    Prepared statement...........................................   140

                           Submitted Material

Corrective Action Orders from the Pipeline and Hazardous 
  Materials Safety Administration to the Plains Pipeline Company.   160

----------
\1\ The addendum to Mr. Wise's testimony is available at: http://
  docs.house.gov/meetings/if/if03/20150714/103737/hhrg-114-if03-
  wstate-wises-20150714.pdf.

 
    OVERSIGHT OF THE PIPELINE SAFETY, REGULATORY CERTAINTY, AND JOB 
                CREATION ACT OF 2011 AND RELATED ISSUES

                              ----------                              


                             JULY 14, 2015

                  House of Representatives,
                  Subcommittee on Energy and Power,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:16 a.m., in 
room 2123 of the Rayburn House Office Building, Hon. Ed 
Whitfield (chairman of the subcommittee) presiding.
    Members present: Representatives Whitfield, Olson, Shimkus, 
Pitts, Latta, Harper, McKinley, Kinzinger, Griffith, Johnson, 
Long, Flores, Mullin, Hudson, Upton (ex officio), Rush, 
McNerney, Tonko, Green, Capps, Sarbanes, Loebsack, and Pallone 
(ex officio).
    Staff present: Nick Abraham, Legislative Associate, Energy 
and Power; Will Batson, Legislative Clerk; Leighton Brown, 
Press Assistant; Allison Busbee, Policy Coordinator, Energy and 
Power; Tom Hassenboehler, Chief Counsel, Energy and Power; A.T. 
Johnston, Senior Policy Advisor; Brandon Mooney, Professional 
Staff Member, Energy and Power; Mark Ratner, Policy Advisor to 
the Chairman; Dan Schneider, Press Secretary; Caitlin Haberman, 
Democratic Professional Staff Member; Ashley Jones, Democratic 
Director of Communications, Member Services and Outreach; Rick 
Kessler, Democratic Senior Advisor and Staff Director, Energy 
and Environment; John Marshall, Democratic Policy Coordinator; 
and Alexander Ratner, Democratic Policy Analyst.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Whitfield. I would like to call the hearing to order 
this morning, and I would like to recognize myself for a 5-
minute opening statement.
    This morning we are going to be conducting an oversight 
hearing on the Pipeline Safety, Regulatory Certainty, and Job 
Creation Act of 2011, and its implementation of the Pipeline 
and Hazardous Materials Safety Administration (PHMSA). I 
certainly want to welcome the interim Executive Director of 
PHMSA, as well as a second panel that includes representatives 
of the oil and natural gas industry, local government and 
witnesses with other perspectives.
    It has been more than 3 years since the Pipeline Safety Act 
was enacted, and PHMSA's implementation has not been 
satisfactory. Many of the mandates; at least 17 out of 42 
included in the Pipeline Safety Act, have not been completed, 
including several described as key mandates with potentially 
large impacts on pipeline operations nationwide. The potential 
consequences of these delays are serious. In May, a significant 
oil spill occurred in Santa Barbara, California, and just days 
ago the same company reported another incident in Illinois. The 
committee has written letters both to PHMSA and this company 
seeking more information. It cannot be said for certain that 
full implementation of the Pipeline Safety Act would have made 
a difference in Santa Barbara or any other individual oil spill 
or natural gas pipeline explosions. Nonetheless, we owe it to 
the American people to ensure that all reasonable steps are 
taken to ensure the safety of the Nation's pipelines. The 
Pipeline Safety Act includes a number of such steps that have 
yet to be put into action.
    The increase in domestic oil and natural gas production is 
clearly good news, but it does present significant 
infrastructure challenges. Whether it is oil, refined products, 
or natural gas, there is inherent risk in moving high volumes 
of product through aging and sometimes inadequate 
infrastructure. Part of the answer lies in constructing new 
pipelines and replacing old ones, but perhaps even more 
important is applying new technology to ensure the safety of 
the existing system.
    Many experts believe that pipelines are the safest means of 
transporting natural gas and liquid hydrocarbons, but the Santa 
Barbara spill and other recent incidents underscore the fact 
that there is considerable room for improvement. It is 
important to understand why the timely implementation of the 
Pipeline Safety Act has proven so difficult, and particularly 
since more money has been given to PHMSA, and we would like to 
know how PHMSA can expedite this matter.
    And as we begin to look ahead to reauthorization of this 
same statute, we are also interested in learning about PHMSA's 
priorities and if additional legislative steps should be taken.
    [The prepared statement of Mr. Whitfield follows:]

                Prepared statement of Hon. Ed Whitfield

    Pipeline safety oversight is an important and ongoing 
priority with this subcommittee. This morning we will conduct 
our first oversight hearing on the Pipeline Safety, Regulatory 
Certainty, and Job Creation Act of 2011 and its implementation 
by the Pipeline and Hazardous Materials Safety Administration 
(PHMSA). I welcome the interim Executive Director of PHMSA as 
well as a second panel that includes representatives of the oil 
and natural gas industry, local government and other 
perspectives.
    It has been more than three years since the Pipeline Safety 
Act was enacted, and PHMSA's implementation has not been 
satisfactory. Many of the mandates--at least 17 out of 42 
included in the Pipeline Safety Act, have not been completed, 
including several described as key mandates with potentially 
large impacts on pipeline operations nationwide.
    The potential consequences of these delays are serious. In 
May, a significant oil spill occurred in Santa Barbara, 
California, and just days ago the same company reported another 
incident in Illinois. We have written letters both to PHMSA and 
this company seeking more information.
    It cannot be said for certain that full implementation of 
the Pipeline Safety Act would have made a difference in Santa 
Barbara or any other individual oil spill or natural gas 
pipeline explosion. Nonetheless, we owe it to the American 
people to ensure that all reasonable steps are taken to ensure 
the safety of the nation's pipelines. The Pipeline Safety Act 
includes a number of such steps that have yet to be put into 
action.
    The increase in domestic oil and gas production is clearly 
good news, but it does present significant infrastructure 
challenges. Whether it is oil, refined products, or natural 
gas, there is inherent risk in moving high volumes of product 
through aging and sometimes inadequate infrastructure. Part of 
the answer lies in constructing new pipelines and replacing old 
ones, but perhaps even more important is applying new 
technology to ensure the safety of the existing system.
    Many experts believe that pipelines are the safest means of 
transporting natural gas and liquid hydrocarbons, but the Santa 
Barbara spill and other recent incidents underscore the fact 
that there is considerable room for improvement. It is 
important to understand why the timely implementation of the 
Pipeline Safety Act has proven so difficult and how PHMSA can 
expedite matters. And as we begin to look ahead to 
reauthorization of this statute, I am also interested in 
learning about PHMSA's priorities and if additional legislative 
steps should be taken.

    Mr. Whitfield. We have two panels of witnesses this 
morning, and I will be introducing them right before they give 
their opening statement.
    At this time, I would like to recognize the gentleman from 
Illinois, Mr. Rush, for 5 minutes.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. Well, thank you, Mr. Chairman, for holding this 
important and timely hearing today on the issue of pipeline 
safety oversight.
    Mr. Chairman, in the past, the issue of pipeline safety has 
been one that we have worked on in a bipartisan matter, and it 
is my hope and my expectation that we will continue to work on 
this important matter in the same tradition as we address this 
very, very important issue in this Congress.
    Mr. Chairman, unfortunately, the issue of pipeline safety 
too often takes a backseat to other pressing matters until 
there is an accident or there is a tragedy that focuses the 
public's attention back on this issue. Of course, today's 
hearings take place against a backdrop of the major Santa 
Barbara pipeline breach that spilled 100,000 gallons of crude 
oil in May, polluting the Pacific Ocean, damaging Southern 
California beaches, and killing hundreds of thousands of 
wildlife.
    Additionally, Mr. Chairman, just over the weekend there was 
another smaller, but no less troubling spill, in my home State 
of Illinois from a station operated by the Plains All American, 
the very same company that owned the California pipeline that 
ruptured just 2 months ago. Two ruptures in 2 months, Mr. 
Chairman.
    So, Mr. Chairman, while this subcommittee continues to 
debate issues such as fast-tracking the pipeline permitting 
process, I think that it is imperative that we also examine the 
safety mechanisms we currently have in place to ensure that 
they are working effectively. And whether there are 
deficiencies in areas of resources or leadership, I believe 
there is much more work to be done in order for Americans to 
feel a greater sense of confidence in the agencies that are 
responsible for pipeline safety oversight.
    Once again, Mr. Chairman, I applaud you for holding this 
timely hearing today, and I look forward to hearing from all of 
our expert witnesses.
    And with that, I yield back. I yield to Mrs. Capps for what 
time I have left.
    Mrs. Capps. Thank you, Mr. Chairman, and thank you, Ranking 
Member, Mr. Rush, for holding this hearing and giving me the 
opportunity to provide an opening statement.
    I want to thank Chairman Upton and Ranking Member Pallone 
for a strong leadership within our committee on these issues, 
and for working with me to incorporate oversight of the recent 
oil spill in my district into this hearing. And I want to 
welcome my constituent, Dianne Black, from the County of Santa 
Barbara, who will be testifying on the second panel today.
    And as was already mentioned, nearly 2 months ago, over 
100,000 gallons of crude oil spilled from the ruptured Plains 
All American pipeline into the coastline of my district. The 
oil gushed from the ruptured pipeline, flowed down a hill, 
through a culvert, onto the beach and into the ocean along the 
pristine Gaviota Coast. From there, tens of thousands of 
gallons of oil spread for miles down the coast, closing popular 
beaches, valuable fisheries, devastating wildlife, and bringing 
back horrible memories of the Platform A disaster more than 45 
years ago.
    Since that devastating oil spill in 1969, the Santa Barbara 
community has dedicated itself to learning from that tragedy 
and working to ensure that it does not happen again. Sadly, 
even in a community as determined as ours, May 19 reminded us 
that spills are inevitable as long as we continue to depend on 
oil for so much of our energy needs.
    I know the Plains spill in my district certainly is not the 
first pipeline failure, nor will it be the last. Time and time 
again, we have seen oil and gas pipelines fail, causing 
irreparable harm to lives, property, and the environment. Just 
last Friday, as was mentioned as well, we saw yet another oil 
spill in Illinois from a Plains pipeline; the very same company 
responsible for the spill in my district. These spills remind 
us that we have a responsibility to do everything we can to 
prevent spills from happening, but also to be prepared to 
minimize the damage when they do occur. That is why today's 
hearing and our work to reauthorize federal pipeline safety 
programs are so important. As a result of the Plains spill in 
my district we have already gained valuable insights and 
identified weaknesses that must be addressed.
    I want to thank Chairman Upton and Ranking Member Pallone 
for working with me to fully investigate this spill, ensure 
this Administration is following through on its overdue 
pipeline safety reforms.
    Over the years, regardless of who is in the White House, 
federal pipeline regulations have been weak and ineffective. 
There is a reason that the company that built the pipeline that 
ruptured in my district sued in 1998 to have it be regulated by 
the Federal Government, rather than the County of Santa 
Barbara. They knew federal regulators would ask fewer 
questions, impose fewer restrictions. This cannot be allowed to 
continue.
    I recognize progress has been made in recent years. We 
still have a long way to go. While PHMSA has certainly dragged 
its feet in implementing key reforms, Congress has also failed 
to provide the agency with the resources it needs to meet the 
growing demand. I often hear many of my colleagues tout efforts 
to support the rapid growth in domestic oil and gas development 
and pipeline construction in recent years. While I don't share 
necessarily their enthusiasm for this development, I hope we 
can all agree that we must also support efforts to ensure 
federal regulators have the resources they need to keep pace 
with this growth. We simply can't have one without the other.
    Mr. Chairman, these are just a few of many issues I hope 
this committee can examine closely as we work to reauthorize 
pipeline safety programs. These issues have traditionally been 
very strongly bipartisan. I hope that continues throughout this 
process.
    And I apologize for going way over Mr. Rush's time, and I 
yield back.
    Mr. Whitfield. The gentlelady yields.
    At this time, recognize the gentleman of the full 
committee, Mr. Upton, for 5 minutes.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Thank you, Mr. Chairman.
    So today, this subcommittee returns to the very important 
issue of pipeline safety, and I welcome the Interim Executive 
Director Stacy Cummings of PHMSA to this hearing, and I look 
forward to the prompt confirmation of a permanent 
administrator, as much work needs to be done in the months 
ahead.
    This committee has a long bipartisan history on pipeline 
safety issues, including passage of the Pipeline Safety, 
Regulatory Certainty, and Job Creation Act of 2011, Upton-
Dingell. That law held particular significance to me, as it 
came in the aftermath of a serious oil spill into a tributary 
of the Kalamazoo River just outside of my district in Michigan. 
Following the spill, I worked closely with my friend, John 
Dingell, on a bipartisan basis, as we also worked closely with 
our friends on the Transportation and Infrastructure Committee 
to get the Pipeline Safety Act on the books, signed by 
President Obama. The law contains numerous provisions designed 
to reduce the likelihood of similar pipeline spills, and 
minimize the impact of those when they do occur. However, the 
Pipeline Safety Act will not achieve its primary objectives 
until it is fully implemented, and I am most disappointed that 
more than \1/3\ of its requirements remain incomplete long 
after congressionally mandated deadlines have passed. This 
includes several of the law's most important mandates, such as 
automatic and remote-controlled shutoff valves, leak detection, 
accident and incident notification, excess flow valves, and 
maximum allowable operating pressure. Some of these provisions, 
I am convinced, would have made a difference in the recent oil 
spill in Santa Barbara had they been implemented by PHMSA in a 
timely manner.
    In the last couple of days, PHMSA has announced proposals 
for two of these overdue mandates, and while these late steps 
are certainly in the right direction, there is no question 
something needs to change with the way PHMSA is implementing 
the Pipeline Safety Act. I intend to ask questions to find out 
what more Congress can do to speed up the implementation of 
those requirements.
    The urgency for pipeline safety is greater than ever. With 
record levels of natural gas and liquid hydrocarbons being 
produced in this country and throughout North America, the 
volumes traversing pipelines are setting records. And although 
pipelines are among the safest means of transport, the Santa 
Barbara spill is a harsh reminder that rigorous risk-based 
enforcement needs to be a priority.
    This committee takes pipeline safety very seriously. That 
is why we insist that new pipelines be built with state-of-the-
art safety features. It is also why we passed the Pipeline 
Safety Act to improve the safety of the 2 \1/2\ million miles 
of existing pipelines throughout the country. This includes 
many old and potentially vulnerable pipelines, such as one that 
carries oil beneath the Upper Peninsula and the Lower Peninsula 
through the Straits of Mackinac in Michigan. I think we can all 
agree that it is much, much better to be in a position to 
prevent incidents before they happen rather than to respond 
after they occur.
    In the last hour, the State of Michigan released its own 
report on pipeline safety, including specific recommendation on 
the Straits Pipelines, as well as other steps that can be taken 
to improve safety, including a better relationship between the 
state and PHMSA. I look forward to studying the report and 
commend the state for its commitment to pipeline safety.
    As we look ahead to continued implementation of the 
Pipeline Safety and to the law's reauthorization, we will 
insist on greatly improved performance from PHMSA, and this 
hearing is certainly an important step towards getting us to 
where we need to be.
    And I will yield the minute if any of my side wants a 
minute. If not, I will yield back the balance of my time.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    Today, this subcommittee returns to the very important 
issue of pipeline safety. I welcome the Interim Executive 
Director Stacy Cummings of the Pipeline and Hazardous Materials 
Safety Administration (PHMSA) to this hearing, and I look 
forward to the prompt confirmation of a permanent 
Administrator, as much work needs to be done in the months 
ahead.
    This committee has a long, bipartisan history on pipeline 
safety issues, including passage of the Pipeline Safety, 
Regulatory Certainty, and Job Creation Act of 2011. That law 
held particular significance to me, as it came in the aftermath 
of a serious oil spill into a tributary of the Kalamazoo River 
just outside my district in Michigan. Following the spill, I 
worked closely with my friend John Dingell on a bipartisan 
basis--we also worked closely with our friends on the 
Transportation and Infrastructure Committee to get the Pipeline 
Safety Act on the books. The law contains numerous provisions 
designed to reduce the likelihood of similar pipeline spills 
and minimize the impact of those that do occur.
    However, the Pipeline Safety Act will not achieve its 
primary objectives until it is fully implemented, and I am 
disappointed that more than one-third of its requirements 
remain incomplete long after congressionally mandated deadlines 
have passed. This includes several of the law's most important 
mandates, such as automatic and remote-controlled shutoff 
valves, leak detection, accident and incident notification, 
excess flow valves, and maximum allowable operating pressure. 
Some of these provisions probably would have made a difference 
in the recent oil spill in Santa Barbara had they been 
implemented by PHMSA in a timely manner.
    In the last few days, PHMSA has announced proposals for two 
of these overdue mandates. While these late steps are in the 
right direction, there is no question something needs to change 
with the way PHMSA is implementing the Pipeline Safety Act. I 
intend to ask some tough questions to find out what more 
Congress can do to speed up the implementation of these 
requirements.
    The urgency for pipeline safety is greater than ever. With 
record levels of natural gas and liquid hydrocarbons being 
produced in this country and throughout North America, the 
volumes traversing pipelines are setting records. And although 
pipelines are among the safest means of transport, the Santa 
Barbara spill is a harsh reminder that rigorous risk-based 
enforcement needs to be a priority
    This committee takes pipeline safety very seriously. That 
is why we insist that new pipelines be built with state-of-the-
art safety features. It is also why we passed the Pipeline 
Safety Act to improve the safety of the 2.6 million miles of 
existing pipelines throughout the country. This includes many 
old and potentially vulnerable pipelines, such as one that 
carries oil beneath the Straits of Mackinac in northern 
Michigan. I think we can all agree that it is much, much better 
to be in a position to prevent incidents before they happen 
rather than to respond after they occur. Just a few minutes ago 
the state of Michigan released its own report on pipeline 
safety, including specific recommendations on the Straits 
Pipelines as well as other steps that can be taken to improve 
safety including a better relationship between the state and 
PHMSA. I look forward to reading the report and commend the 
state for its commitment to pipeline safety.
    As we look ahead to continued implementation of the 
Pipeline Safety Act and to the law's reauthorization, we will 
insist on greatly improved performance from PHMSA, and this 
hearing is an important step towards getting us to where we 
need to be. Thank you.

    Mr. Whitfield. The gentleman yields back the balance of his 
time.
    At this time, recognize the gentleman from New Jersey, Mr. 
Pallone, for an opening statement.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman. I appreciate you and 
Mr. Rush holding this long-overdue oversight hearing on the 
2011 Pipeline Safety Act.
    The vast network of transition pipelines in this country 
are considered by most Americans as out of sight and out of 
mind, but when something goes wrong, the presence of these 
facilities can make themselves known in the most devastating 
and sometimes deadly ways. Unfortunately, there are one too 
many examples of this since 2010, first in San Bruno, 
California, then in Marshall, Michigan, and most recently in 
Santa Barbara. There the rupture of a Plains All American 
pipeline spilled over 100,000 gallons of crude oil onto the 
coastline. And I am no stranger to the damage that can be 
caused by pipeline failures. Twenty-one years ago, a pipeline 
exploded in my district in Edison, New Jersey, destroying 
around 300 homes, melting cars, and lighting up the sky from 
New York to Pennsylvania. Unfortunately, that loud and powerful 
explosion was met with a staggering level of inaction by the 
Department of Transportation's Office of Pipeline Safety, and 
its parent organization, the Pipeline and Hazardous Material 
Safety Administration, or PHMSA.
    Two decades and four reauthorizations later, PHMSA has made 
little progress. The shortfalls of the agency have drawn the 
attention of industry and safety advocates alike, as well as 
Democrats and Republicans. I am deeply concerned about PHMSA's 
inability to carry out its mission, numerous safety 
recommendations, or congressional mandates. Almost 5 years 
after the last reauthorization, it is especially troubling how 
many mandates have yet to be implemented by the agency. Many of 
the outstanding requirements are critically important to 
safety, such as those dealing with operating pressure, leak 
detection, and automatic or remote-controlled shut-off valves. 
The lack of inaction on automatic and remote-controlled shut-
off valves is particularly galling considering the NTSB 
recommended expanded use of these damage prevention 
technologies 20 years ago. I remember that during the whole New 
Durham explosion, again, in my district in Edison.
    Even more troubling is the discovery that OMB is also to 
blame. Last night, the committee inadvertently received a 
version of PHMSA's testimony that had been marked up by OMB, 
and OMB's comments clearly showed concern over being called-out 
over this outrageous delay, asking whether PHMSA has a 
``planned response to a question about why this rule has been 
under EO 12866 review so long. If so, could you provide a 
summary of that response?''
    Perhaps, Mr. Chairman, we need to get OMB up here to 
explain to the American people and this committee as to why 
they have held up these proposed rules for so long. Progress 
must finally be made to help ensure the safety of our pipeline 
system, and I hope that this hearing leads to that.
    I am about to yield, Mr. Chairman, but I just want to say, 
I was first elected to Congress not long before that explosion 
in Edison, and we were very fortunate that--I think one person 
had a heart attack and lost their life because of the 
explosion, but there wasn't anybody who directly was impacted, 
although, obviously, that person was who had the heart attack. 
And for several years after that, we made a number of 
recommendations including the remote shut-off valves, but I 
really feel like there is a lot of hoopla when these explosions 
or tragedies occur, but then not much happens afterwards in 
terms of preventing them again. So hopefully, we will get 
something out of this hearing today and the committee's action.
    Thank you, Mr. Chairman. I yield back.
    Mr. Whitfield. The gentleman yields back.
    And that concludes the opening statements.
    So on our first panel, we have one person, and that is Ms. 
Stacy Cummings, who is the Interim Executive Director for the 
Pipeline and Hazardous Materials Safety Administration.
    So, Ms. Cummings, if you would come forward, and you will 
be recognized for 5 minutes for your opening statement, and at 
the end of that time, we will give members an opportunity to 
ask you some questions. So thank you very much for being with 
us, and be sure to get your microphone up close and turn it on. 
And you are recognized for 5 minutes.

   STATEMENT OF STACY CUMMINGS, INTERIM EXECUTIVE DIRECTOR, 
     PIPELINE AND HAZARDOUS MATERIALS SAFETY ADMINISTRATION

    Ms. Cummings. Thank you for that introduction.
    Chairman Upton, Ranking Member Pallone, Chairman Whitfield, 
Ranking Member Rush, members of the subcommittee, thank you for 
inviting me to testify today on the Pipeline and Hazardous 
Materials Safety Administration's progress in implementing the 
Pipeline Safety Act of 2011, and thank you for providing PHMSA 
with the tools we need to execute our pipeline safety mission.
    My name is Stacy Cummings. I am the Interim Executive 
Director of PHMSA. In May, I traveled to the site of the Plains 
Pipeline oil spill in Santa Barbara, witnessing for myself its 
effect on the environment and nearby communities. The spill 
disrupted businesses, threatened wildlife, and impacted local 
residents and tourism. This spill was unacceptable, and 
Americans deserve to be confident that the pipelines in their 
communities are operating safely.
    What I saw in Santa Barbara as well was PHMSA's rapid and 
comprehensive response to the spill. Immediately following 
notification, PHMSA personnel were on the scene, where we 
remain actively involved now. Our inspectors continue to 
conduct a comprehensive investigation into the cause of this 
failure, and we continue to support the unified command's spill 
response efforts, lead by the Coast Guard and EPA. PHMSA 
quickly issued a corrective action order to Plains Pipeline, 
and the affected pipeline remains shut down under our 
authority. We will make sure that the operator identifies the 
root cause of the failure, and mitigates any additional risks 
before we allow them to restart that pipeline.
    I was very impressed by our PHMSA team in the western 
region, as well as throughout the country. It is truly an honor 
to lead a workforce so clearly dedicated to its safety mission. 
Here in Washington, PHMSA continues to take action to 
successfully meet the requirements of each mandate in the 
Pipeline Safety Act. I speak for the entire agency when I say 
that we share your concern and sense of urgency. We are 
committed to satisfying every mandate.
    The rulemaking process is methodical, inclusive, and 
transparent. It enables PHMSA to fully consider stakeholder 
input. In the past month, PHMSA has welcomed new executive 
leadership, and with the support of the Office of Management 
and Budget, we have issued two proposed rules and one final 
rule. Those rules address three mandates from the Pipeline 
Safety Act, and five NTSB recommendations. We continue to work 
to advance significant rulemakings on natural gas and hazardous 
liquid pipelines. These proposed rules are anticipated to be 
published by the end of this year. But rulemaking is not the 
only tool that PHMSA uses to improve pipeline safety. As we saw 
in Santa Barbara, pipeline failures don't wait on the 
rulemaking process, and neither will PHMSA. We are first and 
foremost a safety agency. We execute our mission on several 
fronts with one goal in mind; to drive down the pipeline 
failure rate to zero. In addition to developing safety 
regulations, we focus on reducing risk by reaching out to the 
regulated community to ensure that they both understand and 
comply with federal safety regulations. We conduct integrated 
inspections, we hold operators accountable through enforcement, 
we provide grants to our local and state pipeline safety 
partners, and we also fund research to develop innovative 
safety solutions. For these reasons, pipeline failures are low 
probability events, even as risk factors increase. 
Unfortunately, when pipeline failures do occur, they can be 
fatal and costly. At PHMSA, we think that one pipeline failure 
is one too many.
    PHMSA was founded just 10 years ago, and yet so much has 
changed since then. Our Nation's energy supply and 
transportation pipeline network continue to grow exponentially. 
These changes are tremendous opportunities for our Nation, and 
provide an opportunity for PHMSA to evolve with the industry we 
regulate. Whether it is through smarter data or funding 
research for better detection technology, PHMSA will weigh and 
act on a range of options for implementing innovative pipeline 
safety solutions. PHMSA is committed to working with this 
committee to ensure that we are well positioned to adapt to a 
modern and evolving infrastructure. Americans deserve to be 
confident that PHMSA is protecting people and the environment. 
We take this charge very seriously.
    Again, thank you for your support. I look forward to 
answering your questions.
    [The prepared statement of Ms. Cummings follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Whitfield. Ms. Cummings, thank you very much. And I am 
going to defer my questions, but I am going to recognize at 
this time, Mr. Olson, of Texas, for 5 minutes.
    Mr. Olson. I thank the chair. And welcome, Director 
Cummings. It is always great to have someone who served our 
Navy, as the daughter of a career naval officer.
    Ms. Cummings. Thank you.
    Mr. Olson. My home State of Texas is no stranger to 
pipelines. According to EIA, we have nearly 60,000 miles of gas 
pipelines. Oil lines cover the state as well. They are vital to 
our economy, to the Nation's economy, as they carry the 
products that keep America moving.
    It is not just oil and gas in pipelines. Water pipelines 
can blow out as well. We saw that last year when Sunset 
Boulevard became Sunset River. A 93-year-old pipeline blew out, 
sending 20 billion gallons of water all over the campus of 
UCLA. We know that pipelines are the safest way to move oil and 
gas, but just like airplanes, when the worst happens, it can be 
tragic. People can be killed. Eight people lost their lives in 
San Bruno. Eight people in their homes. And that is why we 
should always keep moving forward with pipeline safety.
    It seems clear that PHMSA was never going to make our 
deadlines that we imposed with the most recent Pipeline Safety 
bill. And when PHMSA has a long list of new rules to write, do 
you try to triage them and focus on the ones that are more 
important to keeping people safe? How are you working through 
that list?
    Ms. Cummings. Thank you for that question, Congressman. 
Yes, we had 42 mandates in the 2011 Pipeline Safety Act, of 
which we have completed 26. We are working on every single one 
of those 42 mandates, and in the case of the mandates that are 
going to be addressed through rulemakings, we haven't been 
waiting on the rulemaking process to get information out to our 
stakeholders, to the industry, and to the public. We have 
sanctioned studies, and we have issued reports to Congress. We 
have held public meetings and workshops. We have issued advance 
notices of proposed rulemaking to help us gather stakeholder 
data, and in some cases we have proposed rules that we have 
issued, like the two that we were able to issue in the last 
month. Those are all very important ways that we get 
information out to the stakeholders and to industry as we 
continue to work to fulfill the remainder of the 42 mandates, 
again, many of them with formal rules that we are in process 
working on.
    Mr. Olson. So 42; 26 down, 16 to go----
    Ms. Cummings. Right.
    Mr. Olson [continuing]. If my math is right. Keep working 
hard on that.
    Ms. Cummings. We will.
    Mr. Olson. My second question, I hope to ask this to the 
second panel as well--if I call the city hall in the village of 
Pleak back home in Texas, and ask Mayor Bittner or Fire Chief 
Gania has PHMSA reached out to you about pipeline safety, what 
do you think they will say? Put it another way, how much have 
you done outreach to the first responders and leaders at local 
communities?
    Ms. Cummings. I hope that what he will say is, yes, 
absolutely, PHMSA has reached out. We reach out to our 
stakeholders in many ways. I mentioned a couple of them being 
public meetings and workshops. We partner with the first 
responder community to make sure that they have access to 
training. We also have several grants. About \1/3\ of our 
budget goes to grants. And some of those grants are technical 
assistance grants where the mayor or the first responder 
community can actually apply for a grant with PHMSA to get 
technical assistance to provide training, to do outreach to the 
public, to invest in equipment that is going to help them 
respond to a pipeline accident if it were to occur. So there 
are many opportunities for stakeholders such as your mayor and 
the first responder community to interact with PHMSA, and for 
us to help them be prepared.
    Mr. Olson. I will check with them and confirm those.
    Ms. Cummings. Thank you.
    Mr. Olson. Great, thanks for that answer. Final question, 
you have always kept the focus on risk-based standards over the 
years, and that is appropriate, but how does this risk-based 
standards agenda move forward, evolve with these new 
rulemakings?
    Ms. Cummings. One of the most important changes to the 
pipeline safety program over the last 10 to 15 years has been 
our implementation of integrity management. Integrity 
management is a risk-based approach where we require the 
operator to identify, assess, and mitigate risks associated 
with their specific pipeline. The operator is in the best 
position to understand the uniqueness of the location, the 
condition of their pipeline, as well as what is moving through 
their pipeline. And so our program for integrity management is 
our risk-based approach, and we are going to continue to 
improve it, enhance it, and expand it through the rulemakings 
that you are going to be seen proposed over the next year.
    Mr. Olson. Thank you.
    I am out of time. Yield back.
    Mr. Whitfield. At this time, recognize the gentleman from 
Illinois, Mr. Rush, for 5 minutes.
    Mr. Rush. Ms. Cummings, I really want to thank you so much 
for being here today with us, and I know your job is not an 
easy one and you are the Interim Executive Director, and I 
enjoyed our recent discussions.
    And I would like to--before I begin, if you can give me an 
update on the pipeline meeting that happened on Friday near 
Highland, Illinois. Is the spill contained? And I have heard 
that the oil has reached a tributary of Silver Lake concerning 
the water supply for the citizens of Highland, and I would like 
to know if the water supply is safe, has it been affected, and 
give me an update if you will on the clean-up efforts that 
PHMSA is conducting there or overseeing there near Highland, 
Illinois.
    Ms. Cummings. Happy to, and thank you for the question.
    Mr. Rush. Yes.
    Ms. Cummings. On Friday in Pocahontas, Illinois, a pipeline 
fitting at a pump station blew out, discharging about 100 
barrels of crude onto the ground. The spill did migrate down a 
ditch into a creek, as you mentioned, and it did threaten the 
water source. It was heading in the direction of a reservoir 
that held a water source for Highland, Illinois. We were 
notified of the spill through the National Response Center, 
which is the appropriate way to be notified. We immediately 
sent a PHMSA investigator to be on the scene, and that 
investigator was on the scene by 4:00 p.m. that very day. An 
incident command center was set up. The State of Illinois had 
the lead on that. And what they did was they managed the 
response, they immediately went in to stop the flow of oil, and 
they were able to stop the flow of oil before it got to the 
point where it threatened the water source. So as was confirmed 
to me yesterday through an update from our team, the water 
source was--oil did not get into the water source--into that 
reservoir.
    The clean-up effort did work. They used booms, and then for 
the past several days, they have been using different methods 
to recover the oil. And they are in the process of continuing 
to do that.
    I can get you a very, very specific update in writing for 
the record if you would like, but I would like to point out 
that this was Plains Pipeline, which is the same operator from 
the Santa Barbara spill.
    Today, we are issuing a corrective action order to Plains 
specifically related to this spill in Illinois, and I sent a 
letter yesterday to the CEO of Plains Pipeline, and he and his 
team are going to be here in D.C. at PHMSA, and we are going to 
talk to them on Friday about their safety record, safety 
culture, and what they are doing to address these two issues, 
but also the safety of their entire system.
    Mr. Rush. In your opinion, do most mayors, county 
executives, local leaders even know what pipelines are in their 
jurisdiction and what those pipelines are carrying, and if they 
wanted to obtain this information, can they get it from PHMSA?
    Ms. Cummings. Yes. We have an online tool called the 
National Pipeline Mapping System, NPMS. That tool in its 
entirety is limited in access, but what we do is we have 
individual access for people based on the information that they 
need to know. So a local executive, a local emergency 
responder, or a state-level emergency responder or executive 
would have the ability to apply for a password----
    Mr. Rush. Yes.
    Ms. Cummings [continuing]. And they would have role-based 
access to the information that they need to identify what 
pipelines are in their area. And if anybody needs any help 
accessing that or getting access, we would be happy to provide 
that assistance.
    Mr. Rush. Most citizens of my state would really be 
surprised to know the number of pipelines, an enormous amount 
of pipelines that are located in the State of Illinois. Do you 
have any idea about the percentage of the Nation's pipelines 
that go through the State of Illinois?
    Ms. Cummings. I think you asked the percentage of the 2.6 
million?
    Mr. Rush. Yes.
    Ms. Cummings. No, I can't tell you the exact percentage. I 
can absolutely get you that for the record, but I agree with 
you, there are many pipelines in the State of Illinois that we 
regulate as well as that are regulated by the state.
    Mr. Rush. I was told, Mr. Chairman, that in one part of my 
district, Will County, \1/8\ of the state's entire pipelines go 
through--and this is a small quadrant of my district in the 
State of Illinois.
    I want to thank you again, Ms. Cummings. And I yield back, 
Mr. Chairman.
    Mr. Whitfield. At this time, recognize the chairman of the 
full committee, Mr. Upton, for 5 minutes.
    Mr. Upton. Again, appreciate the hearing. And as I 
indicated in my statement, there are a number of us that are 
not happy with the failure to really implement a number of the 
issues that were signed into law a number of years ago. 
Literally about \1/3\ as we calculate, \1/3\ of some of those 
regulations.
    So I guess I have a question. As we look to reauthorizing 
this bill, which, as you know, expires the end of September, 
should we be providing more direction to PHMSA to prioritize 
the outstanding mandates, or should we allow PHMSA to finalize 
the regs required by the 2011 law before determining what 
changes need to be made? What is your suggested course?
    Ms. Cummings. We do have significant progress that we have 
made on the mandates, over and above the ones that we have 
completed, and we do appreciate your patience in completing 
those mandates. Every single one of them is critical and 
important for pipeline safety. Each one of those mandates are 
as important to PHMSA as they are to you, and we have a plan 
moving forward to complete them.
    We do think that during the reauthorization process, we 
would like to sit down with the committee staff, we would like 
to sit down with you, talk about specific ways that we can use 
reauthorization to help us expand pipeline safety, improve 
pipeline safety, but we do recognize that we have a lot of work 
to do and we are very, very focused on it, and we have a plan 
to complete every one of these mandates.
    Mr. Upton. So one of the easiest ones, in my book, to 
implement was the change that we did that a company had to 
report formally, on a timely basis----
    Ms. Cummings. Yes.
    Mr. Upton [continuing]. And we changed that to say it had 
to be within an hour.
    Ms. Cummings. Yes.
    Mr. Upton. We look at the Santa Barbara spill a couple of 
weeks ago, and that spill, as I understand it from talking to 
Lois Capps, what went on for many, many hours. I mean how is it 
not easy to say it has to be done within 1 hour, and it doesn't 
happen, here we are 4 years later. That was one of the big 
issues that we had in the Kalamazoo River spill in Calhoun 
County back in 2010. They did know that it was going on but 
they didn't report it until even perhaps a couple of days 
later. One billion dollars in clean-up.
    Ms. Cummings. PHMSA agrees that timely notification is 
absolutely critical because the sooner we begin response in the 
rare and unfortunate circumstance of a pipeline rupture. 
Earlier this month, we issued a proposed rule that will require 
operators to notify as soon as practicable, but not more than 1 
hour after they have detected a release, to the National 
Response Center. So we are proud to have gotten that proposed 
rule issued. It was issued earlier this month.
    Mr. Upton. But why did it take so long? That was the 
intent, that was what we discussed. It was in black and white--
--
    Ms. Cummings. Yes.
    Mr. Upton [continuing]. And 4 years----
    Ms. Cummings. I----
    Mr. Upton [continuing]. Is OMB that slow? Do I need to go 
back to Sylvia Burwell, when she was there, to----
    Ms. Cummings. I understand--and I sense your frustration 
that it has taken us this long to have the proposed rule out, 
but I would like to point out that we have issued multiple 
safety advisories, and we have shared with the industry how 
critical it is for timely notification.
    As we execute the investigation into the incident at Santa 
Barbara, and also in Illinois, we are absolutely going to be 
looking at timelines and notification as part of our corrective 
action order, and we do expect operators to be notifying the 
NRC as soon as possible so that they can begin that clean-up.
    Mr. Upton. OK, let me ask one last question in my remaining 
minute. In the current Integrity Management Program for 
inspecting for oil and gas pipelines, is there a priority for 
increased inspections or shut-off valves on pipelines that are 
over 30 years old? So not new ones----
    Ms. Cummings. Yes.
    Mr. Upton [continuing]. But the ones that were made more 
than 30 years ago, or more than a mile under water. So I look 
at the difference between--in the Straits of Mackinac, it is 
more than a mile. I look at the Chesapeake Bay, I am not sure 
if there are pipelines there or not. I look at pipelines that 
are going out in the ocean. Are there any regulations that are 
pending or that you are reviewing that would look at existing 
pipelines of somewhat older nature----
    Ms. Cummings. Yes.
    Mr. Upton [continuing]. In certainly environmentally 
sensitive areas, and if not, should we be looking at those here 
as we look to reauthorize the bill?
    Ms. Cummings. I am going to ask if I can respond to you on 
the record on that specific question on whether or not that is 
in the regs now or the regs that we are planning.
    Mr. Upton. Do you think that is a good idea that we do 
that?
    Ms. Cummings. I think that a risk-based approach looks at 
probability and consequence, and that we should be looking at 
everything that impacts the probability of a pipeline failure 
as well as the consequence. So proximity to water as well as 
age impact both likelihood and consequence. Those sound like 
intriguing ideas, but I would definitely like to talk to the 
technical experts before providing you with a specific----
    Mr. Upton. I look forward to your response.
    Ms. Cummings. Thank you so much.
    Mr. Upton. Thank you. I yield back.
    Mr. Whitfield. At this time, the chair recognizes the 
gentleman from California, Mr. McNerney, for 5 minutes.
    Mr. McNerney. Thank you, Mr. Chairman. And thank you, Ms. 
Cummings, for testifying this morning.
    I would like to know a little bit about how you prioritize 
your inspections. Is there a way for you to determine what 
pipelines are most at risk? Could you explain that a little 
please?
    Ms. Cummings. Yes, absolutely. Thank you. We prioritize our 
inspections using a risk model driven by data, and so we have 
about 26 different elements that look at the condition of the 
pipe, the age of the pipe, what is being moved in the pipe, as 
well as past performance, and what information we have learned 
through the inspections that we have already provided. And we 
use that information and put it into an algorithm, and that 
algorithm gives us basically advice on which companies, which 
operators, we should be inspecting. We then have our regional 
directors who are experts and who really know the system, use 
that information as input to create their annual plan to make 
sure that we are visiting those pipeline operators that are at 
higher risk more frequently----
    Mr. McNerney. OK.
    Ms. Cummings [continuing]. And to make sure that we are----
    Mr. McNerney. So how much transparency does that algorithm 
have? Is that something that is publicly available?
    Ms. Cummings. I am not sure that it is publicly available, 
but I would be happy to schedule a briefing with you or your 
staff to go over that algorithm and how we use it.
    Mr. McNerney. OK, that might be a good idea.
    Ms. Cummings. Sure.
    Mr. McNerney. Is PHMSA moving forward with regulations on 
automatic shut-down valves and remote-control valves?
    Ms. Cummings. We are. In 2012, we provided a report to this 
committee. It helped us to inform our thinking on automatic 
shut-off valves, remote-controlled shut-off valves, and other 
safety technology, to the technical feasibility of it, the 
operational feasibility, as well as economic. So we are working 
on several rules right now. One of them looking at specifically 
leak detection in valves. The others looking at how we can 
improve integrity management, which does include the operator 
evaluating the usefulness and the safety benefit of valves. So 
we are working on that, and we hope to get those proposed rules 
issued----
    Mr. McNerney. OK, thank you.
    Ms. Cummings [continuing]. As soon as possible.
    Mr. McNerney. How is PHMSA doing with regard to controlling 
fugitive gas emissions and safety of pipelines that are serving 
fracking production?
    Ms. Cummings. Can I get back to you on the record on that 
question?
    Mr. McNerney. I suppose you can. In fact, yes, I would 
say----
    Ms. Cummings. Thank you.
    Mr. McNerney [continuing]. You should.
    Ms. Cummings. Thank you.
    Mr. McNerney. Does PHMSA have the resources to complete 
rulemaking on a timely basis?
    Ms. Cummings. We are so grateful that in 2015, Congress 
provided us with the resources we need to hire 109 new people 
for the pipeline program. While 80 percent of those positions 
are going to be resources in the field to support inspections 
and enforcement, 20 percent of them are going to be at 
headquarters, and those positions are specifically going to 
help support our regulatory agenda, economic analysis, 
training, certification, and support of our state partners.
    Mr. McNerney. So, now, you said you hired 100-and-some 
people, are those mostly technical people, or are they 
management?
    Ms. Cummings. Yes. A great proportion of them are 
technical, yes. So in the field, the 80 percent of the 109; 
engineers, auditors, inspectors, and enforcement tech.
    Mr. McNerney. What are the requirements for PHMSA issuing a 
corrective action order?
    Ms. Cummings. The requirement for a corrective action order 
is imminent hazard, and that is part of our statutory 
authority. So the time when you will most likely see us issue a 
corrective action order is going to be after a pipeline 
failure, such as the one in Santa Barbara or the one in 
Illinois.
    Mr. McNerney. But you can and have issued those before 
failures?
    Ms. Cummings. We can if we have evidence of an imminent 
hazard, but more likely it is going to be issued after. And----
    Mr. McNerney. So you don't have any historical examples of 
issuing one before an accident?
    Ms. Cummings. I don't have any examples for you right now. 
I will ask my technical team and get back to you on the record 
if we have an example of that.
    Mr. McNerney. Well, OK. In the remaining 40 seconds, please 
explain a little bit about the rulemaking process.
    Ms. Cummings. Yes, sure. Before we are ready to issue a 
rule, and we are putting together the information, we are 
generally going to do public workshops, we are going to do 
studies, and sometimes we are going to issue an advanced notice 
of proposed rulemaking, which is more of a wide open request to 
stakeholders to provide us information to inform the rulemaking 
process. We are going to take all that information, we are 
going to put it together into a rule that has the safety 
requirements, safety benefits, and also the economic benefits. 
So what is the cost versus the safety benefit of the 
regulation? We issue that proposed regulation to the Federal 
Register. Again, we get stakeholder input. We put that 
stakeholder input together, and we have two advisory committees 
that we consult with at--when we are moving towards the final 
rule stage. We use them to advise us on the benefit of the 
rule, the safety requirements that we have put together, as 
well as the operational ability to implement, and then the 
economics, the cost of it. Once we issue a final----
    Mr. McNerney. I am going to have to yield back, Mr.----
    Ms. Cummings. OK. Thank you.
    Mr. McNerney. I have run out of time. Thank you, Mr. 
Chairman.
    Mr. Whitfield. She was giving great detail.
    At this time, I recognize the gentleman from Illinois, Mr. 
Shimkus, for 5 minutes.
    Mr. Shimkus. Thank you, Mr. Chairman. And welcome, Ms. 
Cummings.
    Ms. Cummings. Thank you.
    Mr. Shimkus. The spill in Illinois is located in my 
district. I talked with the city manager actually, yesterday 
morning. I think one of the interesting things was Keystone 
goes through that area also, and Keystone had provided them 
with a response trailer in which they were able to deploy with 
their firefighters to ensure the protection of the water 
supply, which is called Silver Lake. And so I would concur with 
what you concluded, that there is no threat to their drinking 
water. And their response was as per you would expect when you 
have pipelines. We do have a lot of pipelines. We have the 
Patoka Terminal. So these things happen, and they are 
regretful, but we--the issue is responding. I think those of us 
who were here when we passed the last piece of legislation were 
hoping that--we know we are not going to be perfect, but we 
want, obviously, to have a better process in place to be able 
to ensure that we can identify these before the accident 
occurs. Hence, all these lines of questions.
    The first issue that I would like--you have answered some 
of them in your testimony, but could any of the Pipeline Safety 
Act mandates have made a difference, do you know, in the recent 
pipeline breaks, whether that is in California or the one 
recently in Illinois?
    Ms. Cummings. Because those two investigations are still 
going on, I don't think I can presuppose what the cause was, 
but we will absolutely be looking through our investigation at 
the condition of the pipe, we will be looking at their inline 
inspection results, we will be looking at what happened in the 
control room, how quick were they to respond, did they follow 
their emergency response plans, as well as the placement and 
how quick they closed valves and pumping stations. So I would 
be happy to, once the investigation is complete, do an analysis 
of the results compared to the rulemakings and the mandates 
that we currently have----
    Mr. Shimkus. Yes, that would be helpful. I can't speak for 
California, but I know Plains put up a Web site to give the 
public access, whoever knew about it, to go to the Web site to 
get a current update on their response, and I think that has 
been very helpful.
    I was going to ask about where--but you answered this 
already too, that you--there will be a correction action order 
probably conducted.
    Ms. Cummings. Yes.
    Mr. Shimkus. Can you talk through some of the criteria that 
may be involved in that and maybe some of the benchmarks, 
because now what we want to do is make sure there is some 
certainty----
    Ms. Cummings. Yes.
    Mr. Shimkus [continuing]. Obviously, from the local 
community that it is ready to go and up and running?
    Ms. Cummings. Absolutely. The corrective action order is 
being issued today by our regional director to Plains. And so I 
can tell you in general what is going to be in it. They were 
still working on it, the specifics, as I was coming over to 
this hearing. But we are going to be looking at what was the 
cause. We are going to be looking at--because it was a pipe 
fitting, to look and see where else in the network those pipe 
fittings are so that we can make sure that this event won't 
happen somewhere else on the pipeline network. We are going to 
be looking at their emergency response notification, when did 
they notify, what was the timing, when did they know. And we 
will be looking for them to use third party analysis similar to 
what we have required from Plains in Santa Barbara, and provide 
those results to us so that we can perform our investigation.
    Mr. Shimkus. And lastly, we understand that you are having 
difficulty collecting data from states and localities about 
drinking water supplies and other ecological information. How 
can we help, or what can we do to help get the states to 
provide the information you need to do based upon past 
legislation and your intent on analysis?
    Ms. Cummings. Right. Yes, through our National Pipeline 
Mapping System, in trying to complete the mandates, and also 
just create a good system that we can use but also that is 
transparent, we have had some issues getting access to the 
right data especially in a cost-effective manner. We would love 
help in figuring out the best way to get that data. We are 
looking at information collections right now, but I would love 
to take you up on your offer, and maybe through our 
reauthorization discussion or just individually, if we can come 
up with some ways to make that path cleaner, that would be 
great.
    Mr. Shimkus. Well, and that is why we have these hearings 
too, to find out ways we can work together and be helpful. So I 
am sure the committee is taking notes, and we can follow up 
with that.
    Thank you, Mr. Chairman. I yield back.
    Mr. Whitfield. The gentleman yields back.
    At this time, recognize the gentleman from New Jersey, Mr. 
Pallone, for 5 minutes.
    Mr. Pallone. Ms. Cummings, in the 2002 reauthorization, 
Congress added language to Section 60112 of the law to make it 
easier for the Secretary to take corrective action against a 
pipeline that poses a threat to life, property, or the 
environment, and because the department doesn't issue licenses 
to pipeline operators, this authority is perhaps the closest 
tool the Secretary has to suspending or revoking a license. I 
know that PHMSA used this authority to address threats posed to 
Santa Barbara by two of the lines operated by Plains All 
American, but I am concerned that perhaps the hurdle for using 
this authority is still too high, and that the Secretary isn't 
able to take advantage of it as often as may be needed to 
protect the public and our environment.
    So my question is, do you need more flexibility or 
different, more useable tools to quickly address the threat of 
unsafe facilities?
    Ms. Cummings. The imminent hazard requirement is what we 
would use in order to issue a corrective action order in order 
to shut down a pipeline. We do have a lot of tools in our 
toolbox, but I think--I would very much like to have the 
opportunity to talk in more detail about that specifically, and 
whether or not there was a way for us to use that emergency in 
advance of an accident. That is something we would like to talk 
about in the future. But we are not afraid to use corrective 
actions when we need to--corrective action orders, and we have 
a lot of other tools in our toolbox that we continue to use for 
strong enforcement.
    Mr. Pallone. All right. And Congress will need to 
reauthorize the Pipeline Safety Act soon, and yet, as a number 
of us noted in our opening statements, PHMSA has yet to 
complete some of the most critical rulemakings mandated by the 
2011 Act, including work surrounding leak detection, a very 
important matter in light of the recent incident in Santa 
Barbara. Not only does the Pipeline Safety Trust flag this 
inability to complete its rulemakings as a problem, but 
industry also views this as a matter that is hurting safety, as 
evidenced in Mr. Santa's testimony. My understanding is that 
these rulemakings have been held up in review at OMB due to 
open cost benefit analysis questions. So if you could answer my 
question. What are these open benefit cost analysis questions 
referred to in the comment?
    Ms. Cummings. Well, we work with our interagency partners, 
OMB being one of those partners, to ensure that we are speaking 
with one voice on policy matters. We value the input of OMB. 
Whenever we go through the process of working a rule through 
OMB, it always ends up being a better product. Some of the 
things that they would ask us questions about through the 
rulemaking process are going to be what are the assumptions 
that we used in order to generate the cost versus the benefit. 
They are going to be looking at the data that we used to 
justify the benefit that we have calculated. And we always get 
good information from OMB, and we reply as quickly as we 
possibly can, as do they, we work together to come up with the 
best possible rule. It is very important to us that when we do 
issue a rule, we get it right.
    Mr. Pallone. But how can these questions remain open for so 
long, and how have you tried to resolve them, and maybe most 
importantly, how can we help you? I mean perhaps it is not your 
agency's fault, these rules have yet to see the light of day, 
but you need to tell us what is going on and how we can help 
you get the job done.
    Ms. Cummings. I appreciate that offer for support from this 
committee. We believe that we have a very good relationship 
with OMB, and as I said, we believe we get very valuable 
information back through the process. In my experience, we have 
been working very closely with OMB and they have been very 
cooperative in helping us move our rules forward, but again, we 
want to make sure we get the rules right, and the very 
methodical, open, and transparent process enables us to do that 
with stakeholder input.
    Mr. Pallone. Is there any way that we can help you though 
because, you know, they have remained open for so long, and I 
know you say you are trying to resolve them, but how are we 
going to resolve it and how can we help you?
    Ms. Cummings. I think having oversight hearings like this 
are a great way to do that. It brings visibility to PHMSA as an 
agency and also to the mandates of the Pipeline Safety Act. And 
I think that we have a great plan moving forward, and that you 
are going to see some proposed rules out of us, as you have in 
the last month. I think you are going to see them for the rest 
of the year.
    Mr. Pallone. OK, thank you.
    Ms. Cummings. Yes.
    Mr. Whitfield. At this time, recognize the gentleman from 
Pennsylvania, Mr. Pitts, for 5 minutes.
    Mr. Pitts. Thank you, Mr. Chairman.
    Madam Director, the notices of proposed rulemaking 
announced in the last 2 weeks on accident notification and 
excess flow valves show some incremental progress to address 
safety, however, there are many significant rules still 
pending.
    My question is, when can we expect these rules to be 
published, and will PHMSA commit to sharing a timeline or 
schedule for completion?
    Ms. Cummings. Yes, we have several rules that we are 
actively involved in the rulemaking process. We have a Web site 
that the Department of Transportation keeps up-to-date, and 
that Web site will provide the schedule of where the rule is 
and when we anticipate proposing it or issuing it. In addition, 
we at PHMSA have a Web site that we keep up-to-date on every 
mandate, all of the 42 mandates, as well as other activities in 
the Pipeline Safety Act. We keep that up-to-date as well. And 
so at any time, if you wanted information about our progress on 
the mandates, or where we are in the rulemaking process, that 
is very transparent and it is available on our Web site. But we 
would be happy to come and provide you with a detailed brief of 
each of our rules, what we are looking at for the rules, and 
the schedule.
    Mr. Pitts. Thank you. Last year, Congress increased PHMSA's 
fiscal year 2015 budget by 23 percent, and PHMSA has committed 
to hiring over 100 new personnel to conduct inspections and 
handle enforcement cases. What progress has PHMSA made to hire 
and train new personnel, and, you know, what can Congress do to 
help expedite the process?
    Ms. Cummings. Yes, we are so grateful that in the 2015 
fiscal year, we have enough funding to hire 122 new positions, 
with 109 of them being in the pipeline program. I mentioned 
earlier that 80 percent of those are going to be in the field. 
We are in the process of onboarding people that have accepted 
positions, we are at 46 percent fill rate. We have a very 
robust strategy to bring the remainder of those positions 
onboard. We are doing things like holding veterans fairs, we 
are doing recruitment, we have looked at our requirements to 
make sure that we are reaching the breadth of the folks out 
there who would be interested in coming to work for PHMSA. We 
have even requested direct hire authority, which we haven't 
received, but that would be very helpful in targeting those 
engineering skill sets that we are looking for at PHMSA. And as 
far as training, we have a very robust training program. We are 
going to train those new employees in a bit of a boot camp 
scenario so that they are being trained together, and so that 
they become valuable parts of our inspection team as soon as 
possible.
    Mr. Pitts. Thank you. Section 4 of the Pipeline Safety Act 
required PHMSA to issue regulations if appropriate requiring 
the use of automatic or remote-controlled shut-off valves in 
new or entirely replaced transmission pipelines. This 
regulation could improve the ability of pipeline operators to 
quickly stop the flow of crude oil or natural gas in the event 
of an accidental release. Operator delay in shutting down 
pipeline flow has been identified as the exacerbating factor in 
a number of recent pipeline failures, most probably in the 
September 2010 natural gas pipeline in San Bruno, California, 
when it took an hour and a half to manually close the valve. In 
2010 and '11, PHMSA issued notices of proposed rulemaking for 
both gas and liquid pipelines, and both announcements made 
clear that some changed the requirements for automatic or 
remote-controlled valves was being considered. PHMSA studied 
the issue, it has reported to Congress, so why, years later, 
hasn't PHMSA finalized their regulation?
    Ms. Cummings. We have issued studies, reports to Congress, 
and advanced notice of proposed rulemaking. The rules that I 
spoke to you about, that we have a plan moving forward and we 
are working to propose, do address things like integrity 
management, increasing the breadth of our regulations, as well 
as automatic and remote-controlled shut-off valves, leak 
detection, and other safety technologies that are available in 
the market but we will propose in those rules very soon.
    Mr. Pitts. Is PHMSA reviewing the need to propose changes 
to existing exceptions from federal regulation for gathering 
lines, and if so, when will this review conclude?
    Ms. Cummings. We are. We are looking at that as well as 
looking at how that might inform the rulemaking process. I can 
get back to you on exactly when we are going to be releasing 
that information, but we are working on it and we have a plan 
to release it.
    Mr. Pitts. Thank you, Mr. Chairman. My time has expired.
    Mr. Whitfield. The chair now recognizes the gentleman from 
New York, Mr. Tonko, for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair. And, Director Cummings, 
thank you for joining us. I have to state, I don't envy your 
position today, having to appear before this committee and 
defend the agency and, frankly, its weak, as I would see it, 
record of achievement. That is not a reflection on you, but of 
the failure of the Administration and Congress to support this 
agency and the vital safety mission that PHMSA serves.
    Mr. Weimer, in his testimony, said there is plenty of blame 
to be shared for the slowness in implementing pipeline safety 
initiatives. I agree. Placing blame doesn't solve any problems. 
Aggressive, faster action is what we need. That requires 
additional sustained resources for your agency, our job here in 
Congress, and it requires PHMSA, DOT, and the Administration 
truly to put safety first.
    We have been installing and conveying petroleum, petroleum 
products, and natural gas for pipelines for more than 60 years, 
and I simply do not believe we have to continue to tolerate the 
number of accidents that occur as a basic cost of doing 
business.
    Section 8 of the 2011 Pipeline Safety Act directed the 
agency to study leak detection systems used by hazardous liquid 
pipeline operators, and to issue regulations to require lead 
detection on these pipelines and/or to set leak detection 
standards. The fact that Congress needed to put this into law 
in 2011 is disappointing. It seems to be a basic safety 
requirement that should have been in place some time ago, and I 
believe PHMSA completed that required study at the end of 2012, 
as you indicated. That is correct, right?
    Ms. Cummings. That is correct, 2012.
    Mr. Tonko. So when are we going to see a proposed rule, a 
final rule?
    Ms. Cummings. The status of the rulemakings that I spoke of 
earlier are notice of proposed rulemakings. We at PHMSA, the 
current team, the executive team, as well as the career staff, 
are focused and are completely committed to getting those 
proposed rules complete, getting them issued, and then quickly 
turning around, looking at stakeholder feedback, and turning 
them into rules. We are absolutely committed to that, and we 
have a plan to do it.
    Mr. Tonko. Well, we are going to watch closely. Apparently, 
damage to pipelines by excavation continues to be one of the 
main causes of significant pipeline incidents. As I stated 
earlier, we have been building and using pipelines for a very 
long time. How detailed and accurate are the maps of the 
existing pipeline network?
    Ms. Cummings. I spoke earlier about the National Pipeline 
Mapping Program that we have, and as you point out, the 
availability of data there is as good as the data that comes 
into it. It is complete from a federal perspective of our 
oversight, but there is more information that we would like to 
collect. Data is one area that I think we have room to improve, 
and I think we have room to work together to improve. Being 
able to have complete access and visibility and transparency 
across the country, and also to be able to evaluate through our 
data, our data systems and analytics, those are all very 
important and things that we are looking to do in the future, 
and it would be great to work with this committee to figure out 
ways to use data more effectively.
    Mr. Tonko. Yes. Thank you. Most decisions about zoning and 
development are made at the local level. Is there a way to 
better engage our local officials? Do mayors and planning 
boards have appropriate access, great access to information 
that impacts their communities?
    Ms. Cummings. Yes. That is a great question. Part of our 
Stakeholder Outreach Program at PHMSA looks at all sorts of 
things, ways that we can get information out, public workshops, 
local open houses, as well as the grant programs that we have, 
specifically around things like excavation damage. We also look 
at ways that we can provide information to localities about 
planning and development as people start to move closer to 
pipelines that have been there for a very long time, and we do 
a lot of outreach related to that, as well as support to local 
planning. Our state partners are critical in our National 
Pipeline Safety Program, and so any way that way improve that 
collaboration, improve that relationship, we want to do that, 
and we are definitely open to ideas for how we could do that 
better.
    Mr. Tonko. And I thank you.
    It seems as though I am almost out of time here. I would 
just encourage us to move along with the final plans that will 
be presented, the proposals that you have talked of, and to be 
able to go forward and address safety to the max.
    And with that, thank you, Mr. Chair, I yield back.
    Mr. Whitfield. The gentleman yields back.
    At this time, recognize the gentleman from Ohio, Mr. Latta, 
for 5 minutes.
    Mr. Latta. Well, thank you, Mr. Chairman. And thanks very 
much to our witnesses for being with us today. Appreciate your 
testimony today.
    And I was interested in your testimony where you cited that 
we have about 2.6 million miles of pipeline right now in the 
Nation, and that--also that the mileage is going up every year 
from the past where we were doing, it looks like you said, 
between 3 to 4,000 miles, and now to about 3,500 or 7,500 
miles----
    Ms. Cummings. Yes.
    Mr. Latta [continuing]. Per year. And I know that we have 
had the Secretary of Energy in and he talked about the energy 
boom, of course, that is occurring in this country on the 
natural gas and on the oil side, which makes it essential that 
we have the pipelines out there to move the energy that we 
have. And, of course, like across Ohio and across my district 
there are new pipelines being proposed, and I was wondering if 
you could--again, from your testimony, you state that you would 
like to work again more with Congress to explain those risk 
reduction proposals. So if you, again, could give more 
information to us on that, what those proposals might be on 
those reductions.
    Ms. Cummings. Sure. You did mention new construction and 
growth of the network. We do intend to spend about 25 percent 
of our inspection time supporting and looking at new 
construction pipelines. The best time to ensure that a pipeline 
is safe is during construction, and before it actually goes 
into operation. And so the regulations that we have overseeing 
new construction as well as our inspection and enforcement are 
critical to long-term pipeline safety.
    From a risk perspective, some of the things that we are 
working on in terms of integrity management are to improve the 
actual integrity management process, but also to expand it into 
areas where integrity management isn't in place right now. 
Integrity management puts the onus on the operator to identify 
risk and--they use risk models in order to do that so that they 
can prioritize their investment in safety in their pipelines.
    One of the things we are doing in September is we are going 
to hold a workshop, and we are going to look at risk modeling 
across multiple industries, and we are going to see how we, 
PHMSA, can take that information and then share it back out 
with the industry so they can improve their risk models, 
because the best way to implement integrity management is to 
properly identify, properly assess risk, that way they can 
mitigate it. And our goal is to prevent a failure before it 
happens. And that is what risk management enables us to do in 
the Pipeline Safety Program.
    Mr. Latta. Well, thank you. And I know it has come up a 
little bit before in regards to the whole question about the 
Call Before You Dig----
    Ms. Cummings. Yes.
    Mr. Latta [continuing]. And I know that around the areas 
you have the signs up that--I know that companies have about 
the--call the 811 number. And also I see in your testimony that 
28.3 percent of all distribution incidents were caused by the 
excavation damage, and that cost $25 million in damages, one 
fatality, and 15 injuries. And you state that you are working 
hard to raise the 811 awareness, but could you give more detail 
about what you are doing to raise that with the local 
communities again because, again, for a lot of us, we came from 
local governments at one point in our lives, and I was a county 
commissioner, and we had the planning commission that we all 
served on, but what are you doing to really get that 
information out, because I know that you talked about the 
mapping----
    Ms. Cummings. Yes.
    Mr. Latta [continuing]. And trying to find that information 
out, not only what Mr. Shimkus had brought up about in regards 
to water, but others about existing pipelines, but what are we 
doing to try to get that, for that 811 information for people 
to know that, you know, because a lot of times when people 
think about Call Before You Dig, they are thinking, well, 
before I go out in my backyard and I am going to dig a new hole 
for a tree, that I don't want to hit some kind of a, you know, 
an electric line. But now we are talking about those 
transmission lines out there with excavation.
    Ms. Cummings. Yes. One of the most frequent causes of 
pipeline failure is excavation damage. And we have our 811 
Program which we oversee in conjunction with Common Ground 
Alliance, a not-for-profit group that works on 811. We do have 
a grant program associated with excavation damage, as well as 
Call Before You Dig. We have been doing a lot of outreach. You 
might have seen the Triple Crown winner was wearing an 811 hat 
this year. You will see that we are having an 811 day at 
National Stadium. We are trying to use media as well as our 
local relationships with the local Common Ground Alliance folks 
to get the word out to use 811 and Call Before You Dig. It has 
been proven through a study that if you use 811, it is over 99 
percent effective. So what we need is for people to be making 
the call, because we know that if you make the call, that it is 
going to be effective.
    Mr. Latta. Well, thank you very much.
    And, Mr. Chairman, I yield back.
    Mr. Whitfield. The gentleman yields back.
    At this time, I recognize the gentleman from Texas, Mr. 
Green, for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman.
    Ms. Cummings, I don't think it is a secret that I am a big 
supporter of pipelines. I represent a district in north Houston 
and east Houston where I have never not lived on pipeline 
easements in my life, so I have a pretty good understanding 
about the utility of pipelines. It is the safest way to move a 
product. And I guess that is why I am disappointed that we 
haven't dealt with the requirements from the previous 
reauthorization to now, and since I live there and work there, 
I think that we need quicker response. In the 4 years since we 
reauthorized pipeline safety last time, and due to the rapid 
expansion of oil and gas production, the U.S. will need to 
build thousands more miles of new pipelines, including 
gathering and transmission lines. Additionally, our power 
generation sector increasingly relies on natural gas as we need 
more distribution lines as well. But we need to make sure these 
pipelines continue to be the safest mode for that 
transportation, compared to rail and truck. We must also 
address the replacement of the pipelines. Our infrastructure 
continues to age. And PHMSA recently discussed a plan called 
hazardous liquids integrity verification process. What has the 
reception been to that plan from the stakeholders?
    Ms. Cummings. The hazardous liquid proposed rule is one of 
the rules that I have been talking about. We did issue an 
advanced notice of proposed rulemaking. We did get stakeholder 
input, and we have used that to put back into the rulemaking 
process. We hope to be issuing a proposed rule on that within 
the year, and we are working hard on that. Stakeholder input 
was an important part of that process. If you would like, I can 
put together a briefing that specifically identifies all the 
stakeholder input that we have gotten, but I think that--and I 
know you have another panel that will have industry reps, I 
think that industry is as anxious as we are at PHMSA to have 
regulatory certainty, and I think that the plan that we have 
moving forward will enable that regulatory certainty. And so we 
appreciate your support in giving us the time to complete that 
plan and getting that information----
    Mr. Green. Well, we may take you up on that. If it is not 
with the committee, we have a Natural Gas Caucus here----
    Ms. Cummings. Yes.
    Mr. Green [continuing]. That we may ask you to----
    Ms. Cummings. OK.
    Mr. Green [continuing]. Come over.
    Ms. Cummings. OK.
    Mr. Green. When discussing pipeline replacement, is the 
cost recovery a major issue?
    Ms. Cummings. Yes, absolutely. We issued in 2011 a Call to 
Action, and a majority of the states have responded to that, 
but as you point out, replacement of old pipes has a cost to 
it, and a lot of our stakeholders are municipalities and they 
have to do that through--figuring out ways to recapture the 
cost. So that is an issue that those stakeholders are working.
    Mr. Green. What agencies are primarily responsible for 
setting these policies? I know it could be state and federal, 
or both.
    Ms. Cummings. Yes.
    Mr. Green. Is that true on the policies for pipeline 
replacement?
    Ms. Cummings. I am not sure I understand your question. 
Sorry.
    Mr. Green. OK. I assume if they are interstate pipeline----
    Ms. Cummings. Yes.
    Mr. Green [continuing]. It is federal, but in some cases it 
is also a state authority, and I know in Texas, still a 
misnomer, our Railroad Commission is actually our pipeline 
agency.
    Ms. Cummings. Yes.
    Mr. Green. But how do you work with other states who may 
have an interest in it.
    Ms. Cummings. Right. Sorry about that. Of the 2.6 million 
miles, while we issue regulations and are responsible for 
pipeline safety across the country, we rely on our state 
partners to oversee and regulate 80 percent of those pipelines, 
and so we have a strong relationship with the states. We 
provide them training and certification. We also provide them 
grant funding. We evaluate them on a regular basis to make sure 
that they have the skills and tools that they need, and we also 
have a mentor program that we use to improve state performance 
when it comes to the oversight, the regulation of pipelines.
    Mr. Green. OK. Mr. Chairman, I am almost out of time, but I 
have questions that I would like to submit on PHMSA's leak 
detection integrity management rules guidelines, and also the 
coordination for it. I would be glad to submit those questions. 
Thank you.
    Ms. Cummings. Thank you.
    Mr. Whitfield. Thank you.
    At this time, recognize the gentleman from West Virginia, 
Mr. McKinley, 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman.
    This issue is particularly important to us in West Virginia 
as we are trying to transport the Marcellus and the Utica gas 
throughout the state, and finish the network of piping, but it 
seems a few months don't go by without another leak, another 
explosion, another fire. We just had one last week again. It 
just seems to be one after another, and I don't know how we are 
going to stem the loss of confidence of the American public 
that we are doing all that we should be doing to do this, 
because it is as though someone is willing to let these things 
happen because then people turn on fossil fuels, whether that 
is oil or gas. So I am hoping it is not part of a plan here to 
slow the implementation.
    How would you grade the fact--I was a little startled when 
17 of the 42 standards have not been met. How would you grade 
the performance of the agency? Would you give yourself an A for 
what you have done?
    Ms. Cummings. Out of the 42 mandates, we have completed----
    Mr. McKinley. How would you grade yourself?
    Ms. Cummings [continuing]. Twenty six, but we----
    Mr. McKinley. How you grade your--are you doing an A grade, 
a B, how would you grade yourself?
    Ms. Cummings. I have been very, very impressed with the 
staff that I have met at PHMSA, and when it comes to commitment 
to safety and desire----
    Mr. McKinley. How would you grade yourself----
    Ms. Cummings [continuing]. To get these rules done----
    Mr. McKinley [continuing]. You have----
    Ms. Cummings [continuing]. I would definitely give us----
    Mr. McKinley [continuing]. Evaded twice already the 
question that was asked of you----
    Ms. Cummings. Yes.
    Mr. McKinley [continuing]. On both sides of the aisle. What 
is the schedule----
    Ms. Cummings. Yes.
    Mr. McKinley [continuing]. And you avoided it, very 
effectively I might add. But now--I am going to ask that same 
question, but right now first, how would you grade your 
performance? Do you think it is a passing grade, is it a C, a 
B, how would you grade--did you do what you were asked to do?
    Ms. Cummings. We are----
    Mr. McKinley. Yes or no, did--A or B?
    Ms. Cummings. We have not completed all of the mandates 
that you have asked us to complete, but we are absolutely 
making progress on every single one of them----
    Mr. McKinley. I hear----
    Ms. Cummings [continuing]. And----
    Mr. McKinley [continuing]. So you are not--you are going to 
play that game with me too, I guess. So the other two questions 
were when is the schedule? Are you going to finish at the end 
of this year, is it going to be spring of next year, when? 
Don't tell me to go find it myself on a Web site. I am asking 
you, when will you be finished?
    Ms. Cummings. I can tell you that we have a plan, and I can 
tell you that we are working with our stakeholders to go 
through the methodical rulemaking process, and that every 
single person at PHMSA is absolutely committed to getting that 
plan done.
    Mr. McKinley. I am sure you said that back in--2 years--you 
or your agency said over the last 3 years, but this has been 
since 2011, and I am sure the low-hanging fruit was already 
picked to make that happen, but we have 17 more that probably 
are contentious. When will they be finished, when will they be 
approved? You blamed OMB. I wish OMB were here--whether or not 
they would accept that responsibility, but you threw them under 
the bus. So I am just trying--what do we have to do to--I want 
to restore the trust of the American public that enough is 
enough, and I am not getting confidence at all from you. It is 
very evasive on this. So how would you do it? If you are not 
going to answer the question, you are going to tell me go find 
it yourself. Is that correct? Go find it myself?
    Ms. Cummings. What I wanted to express when I was telling 
you about the Web site was that we are being as transparent as 
possible by posting that information on the Web site. The 
status of every single individual rule, where it has been and 
where it is going, and how long it has been there, is 
absolutely available. It is a very transparent process. We have 
a plan moving forward. As I said, we have two rules that I 
think are close to being complete within this calendar year, 
and we have some other rules that we are working very hard on 
at PHMSA to get complete, and to have our economic analysis 
complete so that we can move to issuing those proposed rules.
    Mr. McKinley. So are you suggesting that by the end of next 
year you may have all 42 mandates complete?
    Ms. Cummings. I know that the rulemaking process that we 
are currently going through is going to address 11 of the 
mandates, and that we have reports that are currently being 
finalized that are going to address four of the mandates. And 
so yes, we are making progress on absolutely every single one 
of them. I simply can't look into the future and see what 
stakeholder input we may get, what new technology might be 
developed, or what new requirements might come up to change our 
priorities to say exactly when all 42 will be done, but I can 
tell you that every single person at PHMSA is----
    Mr. McKinley. Well, I hope----
    Ms. Cummings [continuing]. Committed at getting----
    Mr. McKinley [continuing]. Your priorities----
    Ms. Cummings [continuing]. To getting them done.
    Mr. McKinley. I hope your priorities are reestablishing the 
confidence of the American public, that we are doing everything 
we can to give them pipeline safety.
    Ms. Cummings. And that is what we want as well.
    Mr. McKinley. I yield back my time.
    Ms. Cummings. Thank you, Congressman.
    Mr. Whitfield. At this time, recognize the gentlelady from 
California, Mrs. Capps, for 5 minutes.
    Mrs. Capps. Thank you, Ms. Cummings, for your testimony. My 
questions today, because there are still so many unanswered 
ones about the causes of and responses to the May 19 Plains oil 
spill in my district, will have to do with that particular 
incident.
    I know the investigation, not the rulemaking necessarily, 
but the investigation takes time. It is important to get the 
facts right, but it has been 2 months since the spill occurred 
on the pristine coastline, Gaviota Coast, my district. When 
will this investigation be completed and the results shared 
with the public?
    Ms. Cummings. Thank you, Congresswoman Capps. And before I 
answer, I would just like to thank you for your support of the 
agency, as well as the time you have spent with our PHMSA 
employees and talking to them out in Santa Barbara. They 
appreciated it, and I hope you found, as I have, how dedicated 
to safety those PHMSA staff are, and that they take this oil 
spill personally, just like you do.
    The investigation will take time. There are many aspects 
that will require third party evaluation, as well as research 
into different parts of the organization about what happened. 
Some of the things that we are specifically focused on is that 
third party evaluation of the condition of the pipe. I think 
the last I heard, that is going to take a couple of months to 
get the report from the third party evaluator.
    Mrs. Capps. OK.
    Ms. Cummings. The third party evaluation of the inline 
inspection, that is going to take a couple of months.
    Mrs. Capps. All right.
    Ms. Cummings. A corrective action order can actually be in 
place for several months, and----
    Mrs. Capps. OK.
    Ms. Cummings [continuing]. It is not until--go ahead.
    Mrs. Capps. I don't want to cut you off, but I do want----
    Ms. Cummings. Yes.
    Mrs. Capps [continuing]. To ask some other questions as 
well, and so I now have a timeframe. And thank you. Please keep 
this--my office and my constituents--that is a good way to do 
it, and this committee updated as to how things progress.
    I must say the information we have so far is very 
troubling. Makes us question the condition of--now I understand 
it is millions of miles of pipeline running through our 
country. As you know, Plains did an inline inspection of line 
901, May 5, and this is just 2 weeks before that very line 
ruptured. This inspection showed 45 percent metal loss at the 
rupture site, yet now we are now shocked to discover that the 
actual level of corrosion was over 80 percent when the ruptured 
pipe was evacuated. I have seen it myself.
    Ms. Cummings, were you surprised by the disparity, and is 
this a common occurrence?
    Ms. Cummings. The inline inspection tool provides a great 
deal of data, and that data has to be analyzed by experts in 
order to determine what the data is telling them. They also go 
out and actually do digs and look at those anomalies to compare 
them to the data to make sure that they are getting the right 
information. I think that the results of an inline inspection 
need to be looked at from an expert on the data and an expert 
on pipelines----
    Mrs. Capps. OK. I am cutting you off again, but----
    Ms. Cummings. Sorry.
    Mrs. Capps [continuing]. You are making it sound so obtuse. 
It is a disparity.
    Ms. Cummings. It is a disparity.
    Mrs. Capps. And it is disturbing, and it is not the only 
time it happened. Plains has reported that the inline 
inspection also overestimated the amount of corrosion at other 
points along the pipeline. We would rather have an overestimate 
than--of a corrosion than underestimate, but these inline 
inspections are clearly not very accurate. Whether the issue is 
with the technology, system operators, or both, there is 
clearly a problem here. So what is PHMSA doing to improve the 
accuracy? I mean either over or under----
    Ms. Cummings. Yes.
    Ms. Capps [continuing]. What can we do to improve the 
accuracy of the inline inspections in general?
    Ms. Cummings. To your point of the investigation, that will 
be part of our investigation, but looking at inline inspection 
and other assessment tools across the board, our research and 
development budget in our program is a partnership with 
industry where we identify those areas where we can use our 
funds to invest in future safety technologies, and one of the 
technologies we invest in a lot is inline inspection and other 
assessments. And so your support of our research and 
development program is actually the best way for us to be able 
to improve that assessment data, and get closer to reality, and 
to be able to mitigate risk.
    Mrs. Capps. Thank you. In addition, and I hope I can get my 
third question out here, in addition to corrosion on line 901, 
dozens of corrosion problems have been found on an adjacent 
line 903, a longer and wider segment of pipe connected to the 
ruptured line 901. These numerous problems have been outlined 
in your corrective action order, and I have your submission of 
those to us here, and want to submit them for the record here. 
Plains has even acknowledged the problem by accelerating the 
frequency of its inline inspections after its 2012 inspection 
found 41 anomalies serious enough to require excavation. Yet, 
despite the pattern of corrosion and failure to accurately 
measure the level of corrosion on the rupture site, PHMSA is 
still allowing Plains to operate 903 line to reduce pressure. 
Why is PHMSA allowing line 903 to operate when it has the very 
same corrosion disparities and problems as the pipeline that 
ruptured? What assurances can you provide that line 903 won't 
have the same problems that line 901?
    Ms. Cummings. As you pointed out in our corrective action 
order, we did notice similarities between 901 and 903, and so 
we took that imminent hazard and we applied it to line 903, and 
we have put additional requirements on Plains. Line 901 is 
empty. Line 903 does have oil in it. They are not operating it 
in regular course of action. About 100 miles away from the 
coast, just a portion of 903 is intermittently being operated, 
but the rest of 903 remains shut down. And they will only be 
able to operate under our authority if we allow them under the 
corrective action order.
    Mr. Whitfield. Gentlelady's time has expired.
    At this time, I would like to recognize the gentleman from 
Virginia, Mr. Griffith, for 5 minutes.
    Mr. Griffith. Thank you very much. Appreciate you being 
here.
    Mr. McKinley touched on it. Others have touched on it. Mrs. 
Capps, in her questions, although she didn't say it directly. 
One of the big concerns here is that we passed a law 4 years 
ago in an attempt to make the pipelines safer. We are still 
trying to get those regulations implemented. They are not ready 
yet. And there is a confidence, or a lack of confidence, from 
the public.
    Now, I am going to take just a second and go to a different 
subject. I promise you it is relevant. The EPA's Clean Power 
Plan, the final rules are not out yet, some 13 to 16 months 
after that rule comes out, the states have to come up with 
their plan, and by 2020 they have to start implementing that 
plan. As a result, in part of that pressure being placed on 
electric generation companies, 2 major pipelines, see, I told 
you I would bring it around, 2 major pipelines have been 
proposed coming through my region of the state. I represent a 
big chunk of one of them, and the other one affects 
constituents of mine, even if it doesn't actually come through 
my district. Their concern, in many ways, is about safety. And 
I have been communicating this morning with one of those 
constituents. Her farm is going to be affected by the Atlantic 
Coast Pipeline. And there are real concerns there, and part of 
the concern, and the lack of confidence, is the states and 
individuals are having to deal with the consequences of these 
EPA regulations faster than you can get the regulations for 
safety that we passed 4 years ago implemented. What do I say to 
them when they say to me, in rural areas, the shut-offs are 
only 20 miles apart. Twenty miles apart. That is a long way on 
a rural road if you have to get from point A to point B, that 
is not following a road. What do I say to them about the safety 
components when you all can't even get the regs out that we 
thought were necessary that you get out 4 years ago, because of 
previous safety problems? How do I make my constituents feel 
like if somebody is putting a 42-inch natural gas pipeline 
through their property or near their property, or they are near 
one of the compressing and pumping stations, how can they feel 
safe, what can you say to them, because I will tell you that 
this one constituent in particular is watching, so look at the 
camera and tell her how can she feel safe if her farm is now 
going to be dissected or cut through by a pipeline?
    Ms. Cummings. Well, PHMSA is first and foremost a safety 
agency, and the safety of those pipelines are what we think 
about 100 percent of the time. And while we are working on 
those 42 mandates, and working on getting those regulations 
out, we have a lot of experience with new construction because 
we spend about 25 percent of our inspection time with new 
construction, looking at how they are implementing our 
regulations, how they are testing to make sure they are safe, 
and what we have done is we have actually learned a lot about 
new construction that we have put out through safety advisory 
bulletins, that we have put out to the industry in different 
ways that helps to ensure that we learn a lesson.
    Mr. Griffith. And I know that you are trying, but it 
doesn't instill confidence when we hear about other pipeline 
problems in other parts of the country, when we hear that 
pipelines that may have problems are still being used, and now 
they are saying they want to bring a pipeline through our area. 
It causes great concern on the safety factor. What about the 
shut-offs in rural areas, should they be closer together. Is 
that something that we should be working on in Congress?
    Ms. Cummings. So I think we talked earlier about a 2012 
report that talked about automatic shut-off valves, and it 
talked about them being technically, operationally, and 
economically feasible, but not in all cases. And so we will be 
putting out proposed rules that will capture the right 
stakeholder information to make sure that we put out 
regulations that are going to meet the safety requirements 
without creating unintended consequences.
    Mr. Griffith. Well--and I appreciate that. Another question 
I get on a regular basis as a result of being right in the eye 
of the storm for major pipelines coming through the area is why 
are we cutting through new paths? Is there some safety reason 
why you don't want to collocate natural gas pipelines together, 
because we are cutting through a bunch of new paths, not 
following the lines that are already there?
    Ms. Cummings. Yes. We as a safety agency, we don't have a 
primary lead role in the permitting and----
    Mr. Griffith. I understand that. My question is, is there a 
safety concern with collocation?
    Ms. Cummings. Yes, I understand. Can I get back to you on 
the record? I don't know the answer to that question, I am 
sorry.
    Mr. Griffith. All right, I would greatly appreciate it 
because I probably have--I know I have at least one watching, 
but I have a lot of constituents who want to know the answer to 
that question.
    Ms. Cummings. OK.
    Mr. Griffith. With that, I see my time is up. And, Mr. 
Chairman, I appreciate you having this important hearing, and I 
yield back.
    Mr. Whitfield. At this time, recognize Mr. Loebsack for 5 
minutes.
    Mr. Loebsack. Thank you, Mr. Chair. Good to see you, Ms. 
Cummings.
    Ms. Cummings. Thank you.
    Mr. Loebsack. I am from Iowa, and I think a lot of us on 
both sides of the aisle have a lot of concerns being from these 
rural areas----
    Ms. Cummings. Yes.
    Mr. Loebsack [continuing]. And I echo many of those 
concerns that have been already mentioned today. I think I 
mentioned to you before your testimony that we have a proposed 
Bakken Pipeline that would extend from northwest Iowa down 
through my district, much of my district, all the way down to 
southeast Iowa, and it would bring that crude from North 
Dakota, transport it eventually to points of the east and 
south. And I just have a question, from your perspective, you 
mentioned that you are involved in safety and all the rest. 
Eventually, this is going to be approved or not by the Iowa 
Utilities Board, there is not a federal role as far as approval 
of this pipeline is concerned, but can you talk to me a little 
bit about sort of the safety concerns that you folks basically 
have supervision over when it comes to something like this?
    Ms. Cummings. Sure. Thank you. The most important thing 
that we can do is to build safety and build quality into the 
pipeline before it actually goes into operation. And so the 
requirements in our regulations for new construction, a lot of 
them are prescriptive. So they are looking at things like the 
material in the weld, and making sure that they are properly 
installed by qualified people to install them. We also require 
a hydro test to make sure that, before the pipeline goes into 
operation, that it is safe and that there are no leaks. We 
would encourage new construction pipeline to do inline 
assessments, and to really understand the attributes of the 
pipeline so that when integrity management principles are 
applied to that pipeline, that there is a baseline that they 
can use going forward to look at trends and to be able to 
identify that risk. And our goal is to prevent pipeline 
failures, and integrity management and risk management, and 
inline assessments and other assessments are the way that we do 
that.
    Mr. Loebsack. So as the regulations currently exist, 
encourage is the word--the best word that you can use at this 
point?
    Ms. Cummings. On the hydro test and on the other 
requirements, those are prescriptive, those are requirements.
    Mr. Loebsack. Yes.
    Ms. Cummings. We have shared information. There is 
information available in partnership with industry on best 
practices, and when we identify issues that we see are common 
across different new construction, whether they are directly 
applicable to our prescriptive regulations, or whether they are 
best practices, we have ways that we can share them with our 
stakeholders to make sure everyone is aware through safety 
advisories or through workshops.
    Mr. Loebsack. And so I think that is one of the big 
concerns that I am hearing----
    Ms. Cummings. Yes.
    Mr. Loebsack [continuing]. Expressed throughout my district 
is the whole safety issue, leakage, all those things.
    Ms. Cummings. Yes.
    Mr. Loebsack. And if, in fact, the Iowa Utilities Board 
does approve this pipeline, I am going to want to make sure 
that my constituents get the best information possible. 
Opponents are never going to be convinced this thing is going 
to be entirely safe----
    Ms. Cummings. Yes.
    Mr. Loebsack [continuing]. But using the word encourage 
doesn't give me a lot of confidence when I go home and then say 
to them, well, you know, the regulators are telling me they are 
going to encourage folks to do this or that. So I would hope 
that there would be something much stronger than that in the 
regulations. And I do want to, of course, agree with folks here 
today who have expressed concerns that we haven't seen the 
final rulemaking actually done yet for a number of these 
things, and I just want to encourage you, obviously, to use 
that word, because that is all I can do to make sure that we 
finish this up.
    I have one other question having to do--I don't think it 
has been brought up yet today. I served on the Armed Services 
Committee for 8 years. Traveled overseas quite a lot. I am not 
on the Homeland Security Committee, but, I have a map, an 
alleged map at least, of pipelines that are in Iowa, and I 
didn't get that map because I am a Member of Congress and 
because I have some kind of security clearance to have access 
to that map. I have a lot of concerns about access to 
information that is open to the public, especially when it 
comes to potential terrorist threats. Talk to me about that. 
Talk to us about that. How this information that could be used 
by potential domestic or international terrorists to disrupt a 
pipeline gas or oil, or whatever the case may be, how are we 
sure that information is not available to folks out there who 
want to do harm to our country?
    Ms. Cummings. The National Pipeline Mapping System does 
have rule-based access, meaning that the information that is 
available to the public is information that we have deemed is 
not security-sensitive. We take that threat very seriously as 
well, and this committee and our statutory authority has given 
us the ability to redact information that we make public to 
make sure that security sensitive information is not included 
in public release. The information that is available to local 
lawmakers, to local emergency responders, they apply for that 
access, and they are only given that access when we verify 
their identity and their need to have that type of information.
    Mr. Loebsack. OK. Thank you.
    Ms. Cummings. Thank you.
    Mr. Loebsack. Thank you for your testimony.
    And I yield back, Mr. Chair.
    Mr. Whitfield. The chair recognizes the gentleman from 
Ohio, Mr. Johnson, for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman. And, Ms. Cummings, 
thanks for joining us today.
    In your response to Representative Olson a little bit ago, 
you said that PHMSA is looking at how to improve and expand--
improve, expand, and enhance risk-based management. Would you 
explain a little bit more in detail what you mean by that? How 
are you going to go about doing that?
    Ms. Cummings. Sure. We have several ongoing rulemakings 
that have been the topic of discussion this morning, and 
integrity management, which is our risk-based approach to 
pipeline safety in high consequence areas, relies on that risk-
based approach. And those rules are going to be proposed to 
expand where we are using those risk-based methodologies, 
meaning on the percentage of pipe that we are looking at to 
apply those integrity management principles where it makes 
sense, and also to improve integrity management. I mentioned 
that in September, we are going to be holding a workshop, and 
we are going to be bringing in folks from across different 
industries such as aviation, the energy industry, nuclear, for 
example, who use risk-based approaches, and look at how they 
model risk because in order to mitigate the proper risk, in 
order to avoid a pipeline failure, you need to be identifying 
the right risk, assessing that risk, and then mitigating it 
properly for your pipeline. And so those are some of the 
examples of ways that we are going to be improving integrity 
management, both internal to PHMSA and our oversight, but also 
integrity management in the industry.
    Mr. Johnson. Are you including cost in that analysis and in 
the improvement effort, and are you having difficulty in 
incorporating cost into a risk-based regulation?
    Ms. Cummings. Our statutory authority for PHMSA requires 
that our regulations have benefits that exceed costs. So that 
is part of our statutory requirement. So yes, we are looking at 
the cost to implement these improvements versus the safety 
benefit. So in order to do that, we have a team of economists 
and they look at past performance, so the risk goes back to 
likelihood and consequence, the likelihood and the cost of that 
consequence, and then the safety requirements we put in place, 
how much it costs to implement them, and we do a comparison of 
the benefit versus the cost.
    Mr. Johnson. OK. All right, Section 21, Ms. Cummings, 
directed PHMSA to review and report to Congress on existing 
federal and state regulations for all gathering lines. With the 
report, which was submitted more than 1 year late, PHMSA stated 
that it is considering the need to propose additional 
regulations to ensure the safety of natural gas and hazardous 
liquid gathering lines. So is PHMSA reviewing the need to 
propose changes to existing exemptions from federal regulations 
for gathering lines, and if so, when will this review conclude?
    Ms. Cummings. Yes, the report that you are referring to we 
delivered to Congress earlier this year, and what we found is 
that some gathering lines are actually--have the same 
attributes as transmission lines as far as size and amount 
carried. And so as a result of that report, we are looking at 
our regulations and we expect to propose in our future 
rulemaking proposals in the near future, to look at how we can 
capture more information about gathering lines, as well as what 
parts of our regulations should be applied to gathering lines 
based on what we learned in that report.
    Mr. Johnson. OK. All right. Mr. Chairman, I yield back.
    Mr. Whitfield. The gentleman yields back.
    At this time, recognize the gentleman from Maryland, Mr. 
Sarbanes, for 5 minutes.
    Mr. Sarbanes. Thank you, Mr. Chairman. Thank you for being 
here.
    Can you give us a sense of how much pipeline infrastructure 
overall is within the jurisdiction of your agency, kind of 
describe that quickly?
    Ms. Cummings. Sure. There are 2.6 million miles of pipeline 
in the nation. While we as a federal regulator, we issue 
regulations across the entire nation for those pipelines, from 
an oversight and enforcement perspective, we partner with the 
states. So the states actually oversee 80 percent of those 2.6 
million pipelines. We enforce and oversee 20 percent. But the 
states are very close partners of ours. We provide them with 
training, certification, as well as grant funding, and we 
provide them mentorship as well.
    Mr. Sarbanes. So do you consider--I mean your direct 
oversight is with respect to 20 percent, but----
    Ms. Cummings. That is right.
    Mr. Sarbanes [continuing]. Presumably, you consider 
yourself as having oversight responsibility with respect to the 
100 percent acting in partnership.
    Ms. Cummings. Correct. In partnership with our states.
    Mr. Sarbanes. Yes. And can you give me a sense of the 
actual amount of FTE, or sort of what the capacity of your 
compliance and enforcement staff is within your agency 
specifically?
    Ms. Cummings. Sure. We are very grateful that this year our 
2015 budget gave us the funding we needed to hire 109 new 
people into the pipeline part of our organization. Our field 
staff prior to that influx of new people was about 135 people. 
We are bringing in that 109 new people, so we are almost 
doubling our enforcement staff with the positions that were 
appropriated--the funds that were appropriated this year for 
new positions. So we have in the past, I would say if you are 
looking at legacy----
    Mr. Sarbanes. Yes.
    Ms. Cummings [continuing]. Thirty, thirty-five or so 
positions.
    Mr. Sarbanes. In any event, I would imagine that you have 
some reasonable expectation that the industry, the pipeline 
industry itself, will come with kind of a good faith commitment 
to meeting the standards that apply to it. Nevertheless, we 
have seen companies, like the Plains All American Pipeline and 
others, that don't have a great track record when it comes to 
putting these kinds of things in place and adhering to them. 
And I was wondering what your thoughts might be on ways to 
create more accountability within the industry itself, within 
these companies, so that the sort of compliance and 
accountability arm within those organizations has a heightened 
sense of responsibility. That could include things like 
certifying that they are meeting certain standards as a 
corporation, for example, an understanding that there might be 
consequences for not stepping up to that statement of 
accountability. Have you thought about things like that that 
could improve what I would say in the best sense could be 
cooperation between the agency's oversight and the industry's 
own responsibility to come in and step up to its 
accountability?
    Ms. Cummings. Absolutely. An operator is 100 percent 
responsible for the safety of the pipelines that they operate, 
and they do so under our enforcement and under our guidance and 
regulations. One thing that we at PHMSA were happy to see is, 
in the last week, API released a safety management system best 
practices document that really was the industry coming together 
and looking at a tool, safety management systems----
    Mr. Sarbanes. Yes.
    Ms. Cummings [continuing]. That has been successful in 
other industries, and it would take sort of the things we have 
been talking about today, about integrity management being 
risk-driven, and really take that to another level. So I 
believe that the industry is responsible for safety. I think 
that they know they are responsible for safety. This is a great 
step that they took in partnership with us. We were on the 
teams putting this together. The combination of both 
prescriptive and performance-based regulations from PHMSA are 
another way that industry can, through our performance-based 
specifications, apply technology that is going to make the 
pipeline system, the pipeline networks, safer.
    Mr. Sarbanes. Right.
    Ms. Cummings. And so, yes, there is a lot we can do 
together----
    Mr. Sarbanes. Great. OK.
    Ms. Cummings [continuing]. To improve pipeline safety.
    Mr. Sarbanes. Well, I appreciate that. And it will be 
interesting to monitor how the industry fulfills those new 
expectations, but I think that there could be a place in the 
future if we don't see that kind of accountability that needs 
to be there, for people within these organizations kind of 
having to sign on the dotted line and certify that these things 
are in place, and put their name as leaders of those 
organizations behind those commitments.
    Thank you, and I yield back.
    Mr. Whitfield. At this time, recognize the gentleman from 
Texas, Mr. Flores, for 5 minutes.
    Mr. Flores. Thank you, Mr. Chairman. And thank you, Ms. 
Cummings, for joining us today.
    A lot of great questions have been answered and so I just 
have a couple of things I would like to drill into that follow 
up a little bit on Mr. Sarbanes' question, but more closely to 
Mr. Pitts' questions. I think in response to one of Mr. Pitt's 
questions you said that the progress you have made to--hiring 
that 109 new people is 46 percent, is that correct?
    Ms. Cummings. Correct.
    Mr. Flores. OK, I just want to verify that. And in your 
response you also said something about requesting direct hire 
approval. Can you tell the committee what does that give you, 
what does that mean, and how do you get that approval?
    Ms. Cummings. Direct hire authority is a tool in the 
Federal Government that allows us to streamline the hiring 
process. It is something that we had requested of the Office of 
Personnel Management. We heard back that it was not approved. 
We think that that is one tool that we were looking at, but we 
are looking at a lot of other tools to recruit for qualified 
and well-educated people who want to dedicate their life to 
public service, and dedicate their life to safety. So we are 
actively recruiting for positions across the country, as well 
as here in D.C. And I think I mentioned also that tomorrow we 
are going to be having a veterans hiring fair at the Department 
of Transportation. So we are really focused on getting great 
people into the department, again, who are dedicated to public 
service.
    Mr. Flores. If you had had direct hire authority at the 
beginning of the fiscal year when you got the additional 
funding, where do you think you would be on the hiring today?
    Ms. Cummings. I think we would be much further along. I 
don't want to commit and say that we would be at 100 percent 
right now. But we need to make sure that we are hiring the 
right people, and so a lot of the process is going through the 
reviewing resumes and making sure that we are doing good 
interviews, and that we are getting the right people with the 
right skills, but I do think we would make more progress. Thank 
you.
    Mr. Flores. That is all the questions I have. Thank you. I 
yield back.
    Mr. Whitfield. Thank you.
    At this time, recognize the gentleman from Oklahoma, Mr. 
Mullin, for 5 minutes.
    Mr. Mullin. Thank you, Mr. Chairman. And thank you, Ms. 
Cummings, for being here.
    A lot of talk has been, obviously, on the pipelines and yet 
the pipelines still provide the best option, provide the 
resources we are needing to ship across this country from part 
A to part B. In fact, 99.9 percent of all of it in the 
pipelines, be it natural gas or oil, gets to its destination 
with zero incidents. And without question, it is a vital part 
of the infrastructure, and a competitive advantage we have in 
this country for our energy rates being at the low level that 
they are. And what we are talking about right now is going back 
to 2011 when there were 17 mandates that hadn't been 
implemented, and we have talked a lot about that, but I don't 
know if we have really spent the time about the industry 
itself. See, as a business owner, the biggest problem we have 
is understanding where the regulatory environment is going, and 
it is certainty that we are needing. It is understanding of 
what are we going to have to comply with. When we are bidding a 
job, we have to understand what our cost is going to be. And 
since we have been waiting for 4 years for PHMSA to implement 
these, it is creating a tremendous amount of uncertainty of 
knowing where the industry can go. We know we are going to have 
to start building some pipelines in a serious way. I mean as 
this Administration's war on coal continues, we are going to 
have to get a lot more pipelines in the ground to provide the 
resources we are going to have to have.
    And, ma'am, the position that you are in is kind of in 
question. I mean you are filling in a position, and I commend 
you for that----
    Ms. Cummings. Thank you.
    Mr. Mullin [continuing]. But are you capable right now to 
steer to steer PHMSA in the right direction? Are you able to 
make those decisions or are you guys going to be sitting there 
waiting for the next administrator to be assigned to you?
    Ms. Cummings. The President nominated Marie Therese 
Dominguez----
    Mr. Mullin. Right.
    Ms. Cummings [continuing]. And we are anxiously awaiting 
her confirmation. She is serving right now as the deputy 
administrator at PHMSA. The career staff, the entire operation 
at PHMSA is fully dedicated to achieving these mandates, and 
regardless of the fact that we are in a transition does not 
stop those career employees that work for us from every day 
dedicating their time to safety and to completing these 
mandates.
    Mr. Mullin. Then why haven't they been completed? When the 
President puts out an order, it is done. We seem to implement 
very complicated--in fact, some regulations it is not even 
obtainable and we are already enforcing them. And we are 
talking about setting 17 mandates back from 2011. And look, I 
am not pushing for them to be there, I am just saying that 
either tell the industry you are moving forward or you are not, 
or say, hey, we are going to take the best practices that you 
guys have already put in place, which this might be an idea. 
What you guys have done, you have improved safety in a 
tremendous amount so far on your own. The industry has on their 
own. Maybe we take their best business practice and say we are 
going to take this and apply this, and we are going to see how 
it moves forward, rather than keeping the industry in limbo. 
And I understand, ma'am, you are doing the best you can, but we 
are talking about an industry that is a vital resource that we 
have inside the United States, that provides the infrastructure 
and the resources that all of us use. I don't care what side of 
the aisle you fall on fossil fuels or not, you use them. So we 
are trying to make sure that we don't run short of that supply, 
and I am just wanting to make sure that we create the certainty 
for the industry that is needed to be there. And, Ms. Cummings, 
I really do applaud you because I think you are doing an 
outstanding job in the position that you are in, but I want to 
make sure that the industry isn't held hostage at this time 
too.
    So thank you for being here. And thank you, Chairman, for 
holding this important meeting.
    Mr. Whitfield. Well, thank you.
    And that concludes the questions, except for mine, and I am 
going to recognize myself for 5 minutes. But, Ms. Cummings, 
also, I want to thank you for being with us and addressing the 
concerns of the committee.
    Ms. Cummings. Thank you.
    Mr. Whitfield. And I think it is quite obvious to everyone 
that one of the major concerns is that this Act was adopted in 
2011, reauthorizing--we have 16 mandates that really have not 
been addressed. And Mr. Mullin, I think, made an important 
point in his remarks, and that is that these pipeline 
companies, as they are involved in maintenance, constructing 
new pipelines, making improvements, the uncertainty of what is 
going to happen in these areas does present some problems for 
them. And I don't think any of us can say with certainty that 
the fact that these 16 mandates have not been put in a 
regulation had anything to do with these spills. We don't know 
that. But one conclusion we can come up with and we know for a 
fact that you all cannot do any of your regulations, you can't 
make them final without a signoff of OMB, they have to be 
involved in that process, and every agency--and in Congress, we 
all have our priorities and I think everyone recognizes that 
the priority for this Administration is the Clean Energy Plan, 
and that is a priority for OMB, and EPA has been super 
aggressive in that area. And one conclusion that we can come up 
with is that MSHA and the regulations coming out of your agency 
is not the same priority as the Clean Energy Plan in this 
Administration. Now, I am not going to ask you to address it, 
but that is a logical conclusion that we can come up with.
    So I want to thank you once again. We look forward to 
working with you as we move forward, and you can be relieved at 
this time. And thank you for being with us.
    And I would like to call up the second panel of witnesses 
at this time. And if the second panel would just have their 
seat, and then I am just going to introduce you when you give 
your opening 5-minute statement, and then we will go from 
there.
    OK, our first witness today is Mr. Stan Wise, who is a 
Commissioner with the Georgia Public Service Commission, and he 
is going to be testifying on behalf of the National Association 
of Regulatory Utility Commissioners.
    Mr. Wise, thanks very much for being with us, and you will 
be recognized for 5 minutes. And we would just ask you to turn 
the microphone on, and just kind of watch when the red light 
goes on and your time has expired. But thanks for being with 
us, and you are recognized.

 STATEMENTS OF STAN WISE, COMMISSIONER, GEORGIA PUBLIC SERVICE 
COMMISSION (ON BEHALF OF THE NATIONAL ASSOCIATION OF REGULATORY 
   UTILITY COMMISSIONERS); DONALD SANTA, PRESIDENT AND CEO, 
  INTERSTATE NATURAL GAS ASSOCIATION OF AMERICA; RON BRADLEY, 
VICE PRESIDENT OF GAS OPERATIONS, PECO ENERGY (ON BEHALF OF THE 
  AMERICAN GAS ASSOCIATION); ANDREW BLACK, PRESIDENT AND CEO, 
ASSOCIATION OF OIL PIPE LINES; CARL WEIMER, EXECUTIVE DIRECTOR, 
PIPELINE SAFETY TRUST; AND DIANNE BLACK, ASSISTANT DIRECTOR OF 
 PLANNING AND DEVELOPMENT, COUNTY OF SANTA BARBARA, CALIFORNIA

                     STATEMENT OF STAN WISE

    Mr. Wise. Well, good morning, Mr. Chairman, and members of 
the committee. Thank you so much for this opportunity to 
testify on this very important issue.
    I am testifying on behalf of my state and NARUC, and first, 
let me just say that Georgia's Pipeline Safety Program is one 
of the larger state programs based on service, miles, mains, 
inspectors, and budget, and our program has been ahead of the 
curve on cast iron replacement and bare steel. We have less 
than 5 miles remaining. We have done it over a 20-year period. 
And let me say, in no small part, it is important that we 
recognize the relationship that our inspectors and our state 
has had with PHMSA, and the ability to go ahead and be able to 
do the job we can because of that important financial 
partnership as well as a sharing of information as we go along.
    But one issue that continues to cause problems for us is 
the increasing delays in receiving base grant reimbursements, 
and like other states over the past few years, the amount of 
time that Georgia has had to wait to get paid for enforcing 
these important pipeline safety rules has increased steadily.
    And in years past, our finance department could depend on 
timely payments, which is very important in tight state 
budgets. This clearly is an issue that needs to be resolved.
    Nineteen states have adopted new civil penalty standards. 
Some states believe that it is more important to penalize 
earnings or rates of return rather than to simply levy fines. 
We also believe that the state damage prevention issue prevents 
some states from participating in the program, and ineligible 
for state one-call and preventive grants, because of state law. 
And these exemptions directly affect safety in those states, 
and is counterproductive to the goal of preventing damage. We 
do agree that PHMSA needs to publish the required study on 
automatic and remote-control shut-off valves. States need to 
know what this rate structure is, even if it raises rates in 
our state, for the stability that would be required for the 
installation and maintenance of these facilities. PHMSA has not 
published the evaluation of the current integrity management 
regulations, and whether or not these requirements should be 
expanded beyond the high consequence area. NARUC and its 
members are very interested in the findings of this study. High 
consequence areas, and they have not--PHMSA has not updated the 
National Pipeline Mapping System to include the identification 
of high consequence areas.
    On leak detection, PHMSA has produced a report, but not yet 
published the notice of proposed rulemaking. The language in 
the 2011 Act has caused financial difficulties in the states 
which I referenced, and specifically to Georgia, and they must 
issue waivers for the 36 more states each year.
    Gathering lines is certainly important in this new paradigm 
of oil recovery in our country, and we suggest that the 
gathering lines should be regulated in order to risk to the 
public.
    Notice of proposed rulemaking released on excess flow 
valves was released earlier this month. NARUC is currently 
reviewing that proposal.
    We also believe that PHMSA has not yet implemented 
regulations on maximum allowable operating pressure. We need to 
see these rules in a prudent and expeditious manner to ensure 
the public safety of these lines.
    Mr. Chairman, we specifically speak to safety and 
efficiency issues. It could be economic. These are important 
issues to our states. The implementation and the 
reauthorization of the Pipeline Safety Act is important to 
NARUC and our states, and we thank you for this time to be able 
to express our views.
    [The prepared statement of Mr. Wise follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
        
    [The addendum to Mr. Wise's testimony has been retained in 
committee files and can be found at: http://docs.house.gov/
meetings/if/if03/20150714/103737/hhrg-114-if03-wstate-wises-
20150714.pdf.]
    Mr. Whitfield. Well, thank you, Mr. Wise.
    And our next witness is Donald Santa, who is the President 
and CEO of the Interstate Natural Gas Association of America. 
Mr. Santa, thanks for being with us, and you are recognized for 
5 minutes.

                   STATEMENT OF DONALD SANTA

    Mr. Santa. Good afternoon, Chairman Whitfield, and members 
of the subcommittee. My name is Donald Santa, and I am 
president and CEO of the Interstate Natural Gas Association of 
America, or INGAA.
    INGAA represents interstate natural gas transmission 
pipeline operators in the U.S. and Canada. The pipeline systems 
operated by INGAA's 25 member companies are analogous to the 
interstate highway system; transporting natural gas across 
state and regional boundaries.
    In the wake of the natural gas pipeline accident in San 
Bruno, California, in 2010, INGAA's Board of Directors 
committed the Association and its member companies to the goal 
of zero pipeline safety incidents. While this is a tough and 
some would say impossible goal to meet, the emphasis is in the 
right place; a pursuit of excellence.
    While progress towards INGAA's goal of zero incidents must 
continue, whether or not new regulations are issued, it is 
important and desirable that there be consistency between the 
voluntary commitments in the INGAA action plan and the 
regulations that will implement the 2011 Pipeline Safety Act. 
INGAA has engaged in active dialogue with PHMSA and other 
stakeholders over the past 3 years to achieve this goal. This 
has been constructive, and we have every reason to believe that 
the comprehensive rule proposed soon will affect INGAA's input. 
Still, these proposed regulations are behind the schedule that 
Congress prescribed in 2011. INGAA acknowledges that regulation 
should be thoughtfully considered and include an analysis of 
costs and benefits. The practical consequences of this delay, 
however, is to erode the confidence of some pipeline companies 
that proceeding with the dedication of resources needed to 
implement the pipeline safety commitments will be consistent 
with the final rules adopted by PHMSA. This hesitancy is rooted 
in the perceived risk that the rules ultimately might compel 
repeating certain steps in the pipeline safety action plan. 
This is not insignificant. For example, testing pipelines for 
material strength is both costly and disruptive because 
pipelines need to be removed from operation to complete this 
testing. This do-over risk creates financial risk for pipeline 
operators and their customers, as well as the risk of more 
extensive operational disruptions that would be needed. This 
do-over risk should not be permitted to hold us back when we, 
as an industry and or regulators, should be moving forward.
    Our purpose here is to work collaboratively with PHMSA. 
Because the regulatory process indeed goes beyond what PHMSA 
can control, INGAA wishes to make the point that it is critical 
that these natural gas pipelines safety regulations be 
completed in a workable and timely manner. It is worth 
recalling that the title of the most recent law reauthorizing 
the Pipeline Safety Act makes the point. It is the Pipeline 
Safety, Regulatory Certainty, and Job Creation Act of 2011. 
Regulatory certainty is necessary to move forward.
    INGAA supports the reauthorization of the Pipeline Safety 
Program during this Congress. My written statement includes 
some suggestions for the legislation, including providing some 
more definition for several key natural gas regulations. With 
further definition from Congress, we believe the proposed rules 
could be completed in a more timely manner, and the pipeline 
industry would have greater certainty about what future 
regulations would require. This would allow operators to start 
working towards those requirements now, as opposed to just 
waiting until a set of regulations is final at an unknown date. 
We continue to believe that a reauthorization bill, and the 
accountability and oversight that comes with it, will help to 
get PHMSA back on track for meeting the safety mandates 
required in 2011. I would be happy to discuss this and further 
suggestions.
    Thank you for the opportunity to testify today, and I am 
happy to answer any questions of the subcommittee.
    [The prepared statement of Mr. Santa follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
        
    Mr. Whitfield. Well, thanks very much, Mr. Santa.
    And our next witness is Mr. Ron Bradley, who is Vice 
President of Gas Operations for PECO Energy, and I think you 
are testifying on behalf of the American Gas Association.

                    STATEMENT OF RON BRADLEY

    Mr. Bradley. Good afternoon, Chairman Whitfield, and 
members of the committee. My name is Ron Bradley, and I serve 
as the Vice President of Gas Operations at PECO, which provides 
reliable electric and natural gas customer--or service to more 
than 1.6 million electric customers, and more than 500,000 gas 
customers in southeastern Pennsylvania. I appreciate the 
opportunity to testify on behalf of the natural gas 
distribution industry.
    PECO is a part of the Exelon family of companies. Exelon is 
the Nation's largest competitive energy provider. In addition 
to Exelon's generation, power, and unregulated businesses, our 
sister utilities include BGE in Baltimore, and ComEd in 
Chicago. Combined, we serve 6.6 million electric customers in 
Illinois, Maryland, and Pennsylvania, and more than 1.1 million 
natural gas customers in Maryland and Pennsylvania.
    Today, I am testifying on behalf of the American Gas 
Association which represents more than 200 local distribution 
companies, also known as LDCs, which serve more than 71 million 
customers.
    AGA's member companies operate 2.4 million miles of 
underground pipeline, safely delivering clean, affordable 
natural gas to residential, commercial, and industrial 
customers. LDCs provide the last critical link in the energy 
delivery chain, connecting interstate pipelines directly to 
homes and businesses. Our focus today is ensuring that we keep 
the gas flowing safely and reliably.
    As part of an agreement with the Federal Government, most 
states assume primary responsibility for safety regulation of 
LDCs, as well as intrastate transmission pipelines. Some 
governments are encouraged to adopt minimum standards 
promulgated by the U.S. Department of Transportation. Many 
states choose to adopt standards that are more stringent than 
federal requirements. Additionally, our companies are in close 
contact with state pipeline safety inspectors, working in a 
collaborative manner that provides for far more inspections 
than required under federal law.
    LDCs do not operate strictly in a compliance culture, but 
rather in a culture of proactive collaborative engagement. Each 
company employs trained safety professionals, provides ongoing 
employee evaluations and safety training, conducts rigorous 
system inspection, testing, maintenance, repair, and 
replacement programs, and educates the public on natural gas 
safety. AGA's commitment to enhancing safety adopted in 2011 
provides a summary statement of these commitments. The 
Association has also developed numerous pipeline safety 
initiatives focused on raising the bar on safety, including 
peer-to-peer reviews and best practice forums that share best 
practices, and lessons learned throughout the industry.
    Each year, LDCs spend approximately $19 billion on safety; 
one half of that on our voluntary activities. This number 
continues to escalate as work commences on newly approved 
accelerated pipeline replacement programs.
    The Pipe Inspection, Protection, Enforcement, and Safety 
Act of 2006, and the Pipeline Safety, Regulatory Certainty, and 
Job Creation Act of 2011, both outline several programs that 
help continue to improve the safety of the industry. AGA member 
companies have implemented aspects of these programs either 
through DOT regulation or voluntarily. However, many of these 
programs are in their infancy in terms of implementation, and 
we encourage Congress to allow these programs to develop and 
mature. In the case of the unanimously passed 2011 Act, we 
dealt with a number of key issues. Several of the required 
regulations have yet to be finalized. Progress is being made, 
however, and thus, we believe it would be premature to make 
changes to the law at this time. For instance, the industry is 
experiencing significant uncertainty regarding PHMSA 
implementation of maximum allowable operating pressure, and the 
integrity verification programs. We are prepared to act, but 
regulatory certainty provided by implementation of regulation 
would be beneficial to the industry and customers alike. 
Layering new laws and regulations onto companies before 
existing regulations have been finalized and given a reasonable 
amount of time to work is likely to create uncertainty that 
undermines our shared safety goals. PHMSA has issued a number 
of significant guidance documents, released the results of 
congressionally mandated study on leak detection, and created a 
database to track progress in replacing cast iron.
    With regard to replacement of cast iron, the quantity of 
these mains continues to steadily decline, making up less than 
3 percent of total mileage. There are 29,358 miles of cast iron 
still in use, and the industry estimates it will cost $83 
billion to complete that.
    We applaud the committee's focus on the common goal to 
enhance the safe delivery of this vital energy resource, and I 
am pleased to answer questions on these topics and other topics 
you may have.
    [The prepared statement of Mr. Bradley follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Whitfield. Thank you, Mr. Bradley.
    And our next witness is Mr. Andy Black, who is the 
President and CEO of the Association of Oil Pipe Lines, and he 
had many productive years here at the Energy and Commerce 
Committee, and welcome back, Mr. Black, and you are recognized 
for 5 minutes.

                   STATEMENT OF ANDREW BLACK

    Mr. Andrew Black. Thank you, Mr. Chairman, members. I am 
Andy Black, President and CEO of the Association of Oil Pipe 
Lines.
    Mr. Whitfield. Is the microphone on?
    Mr. Andrew Black. Yes, sir. Can you hear me better? I am 
also testifying on behalf of API.
    We represent transmission pipeline operators that deliver 
crude oil, refined products like gasoline, diesel fuel, and jet 
fuel, and natural gas liquids such as propane. Our U.S. 
pipelines extend 192,000 miles, safely delivering 14.9 billion 
barrels of crude oil and energy products a year.
    Pipelines play a critical role in delivering energy to 
American workers and families. Americans use the energy in our 
pipelines delivered in their cars and trucks to work or driving 
on the job. Farmers use propane for rural heating and crop 
drying. American workers use raw materials like ethane for 
their good-paying manufacturing jobs.
    Pipelines are an exceedingly safe way to deliver the energy 
America needs. The average barrel of crude oil or petroleum 
products reaches its destination safely, greater than 99.999 
percent of the time. Since 1999, pipeline incidents impacting 
the public or environment are down 50 percent. Corrosion cost, 
pipeline incidents are down 76 percent thanks to the widespread 
use of smart inline inspection to detect corrosion in pipes. 
Pipeline incidents caused accidentally by third party damage 
are down 78 percent. But even with these improvements in 
pipeline safety over the last 15 years, we know today we need 
to keep improving pipeline safety further, and are committed to 
doing so.
    Last year, liquid pipeline operators spent more than $2.2 
billion evaluating, inspecting, and maintaining their 
pipelines. The spending shows that we are expending a great 
amount of resources to make pipeline incidents even rarer.
    I would like to share with you a number of the industry-
wide efforts we have underway to improve pipeline safety. Two 
years ago, liquid pipeline operators launched the Pipeline 
Safety Excellence Initiative. It includes shared pipeline 
safety principles, such as the goal of zero incidents. Pipeline 
Safety Excellence also embodies the work of nearly a dozen 
industry-wide groups to improve pipeline operations and safety. 
We are funding research and development on new and improved ILI 
smart pig technologies, developing new best practices to detect 
and respond to potential cracking in pipes, improving leak 
detection program management, and ensuring pipeline 
construction quality management. Strategic initiatives reflect 
review of safety performance data and lessons learned from 
pipeline incidents to make safety improvements. What results of 
the recent California release are not yet available of the 
investigation. We look forward to understanding the root causes 
of that incident, and addressing any recommendations for safety 
improvement industry-wide. Strategic initiatives also reflect 
lessons from safety investigators and address the 
recommendations of the NTSB and advisories from PHMSA. One of 
our most recent safety successes that PHMSA Executive Director 
Cummings mentioned is a new tool to manage comprehensively and 
holistically all of the different pipeline safety activities 
across the company. API recommended practice 1173. The NTSB 
recommended we develop this best practice for pipeline safety 
management system after the 2010 Marshall, Michigan, pipeline 
release.
    We embraced NTSB's recommendation and worked together with 
PHMSA, state regulators, natural gas pipeline operators, and 
process safety experts over a stretch of 2 years to reach an 
agreement on this important advance in pipeline safety. Over 
that time, we consulted with safety experts within other 
industries successfully using safety management systems to 
improve safety in their sectors. Our members are now planning 
aggressive implementation of this pipeline safety management 
system recommended practice because of the opportunity we have 
to improve pipeline safety industry-wide.
    Another success story is the work of our emergency response 
team. Local fire and police departments, especially volunteer 
departments in rural locations, told us they just didn't have 
the resources to obtain pipeline-specific emergency response 
training. We responded to this need by bringing pipeline 
training to them free of charge through an online course. This 
and other pipeline emergency response tools can be reached 
through the Web site, Pipelineemergencyresponse.com. For these 
efforts, I will proudly travel later this month to Nashville in 
the annual meeting of the National Association of State Fire 
Marshals to receive their Norm Mineta Excellence in 
Transportation Safety Award, presented this year to API and 
AOPL jointly for the work of our emergency response team. This 
award is given annually to an individual or team that has made 
a significant and lasting contribution to the safety of people, 
products, and materials in transit. Through this award, state 
fire marshals recognize individuals and teams that have 
encouraged transportation safety standards above what is 
required, and have worked to ensure the safety of emergency 
responders.
    As you can see, there is much work underway to improve 
pipeline safety performance. Thank you for the opportunity to 
testify.
    [The prepared statement of Mr. Andrew Black follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
        
    Mr. Whitfield. Well, thank you, Mr. Black.
    And our next witness is Mr. Carl Weimer, who is the 
Executive Director of the Pipeline Safety Trust. Thanks for 
being with us, and you are recognized for 5 minutes.

                    STATEMENT OF CARL WEIMER

    Mr. Weimer. Good afternoon, Chairman Whitfield, and members 
of the committee. Thank you for inviting me to speak here 
today.
    The Pipeline Safety Trust came into being after a pipeline 
disaster that occurred in 1999. While prosecuting that 
incident, the U.S. Justice Department was so aghast at the way 
the pipeline company had operated and maintained their 
pipeline, and the lack of oversight from federal regulators, 
that they asked the federal courts to set aside money from the 
settlement of that case to create the Pipeline Safety Trust as 
a watchdog organization over both the industry and the 
regulators. We have been trying to fulfill that vision ever 
since.
    Reviewing the implementation of the 2011 Pipeline Safety 
Act is somewhat difficult because of the many required reports 
and changes to the regulations have yet to be produced. The 
slowness of the reporting and rulemaking process seems at odds 
with the public proclamations of concern and action from the 
Administration. While many are frustrated by this slow 
progress, it is difficult to know exactly where to lay the 
blame. PHMSA is partially to blame, since they have been slow 
to produce the required reports and regulation, but they have 
also been clear with Congress for a number of years now that 
they lack the resources needed to complete their mission in a 
timely manner. We also have noted that many times regulations 
and reports, once produced by PHMSA, get significantly delayed 
by the Secretary's office itself, or by the White House's 
Office of Information Regulatory Affairs. It would appear there 
is plenty of blame to be shared for the slowness in 
implementing many important pipeline safety initiatives.
    Even with the slowness and delay, progress has recently 
been made, as evidenced by the reduction in the number of 
pipeline failures that involve both injuries and death to all-
time low levels. Unfortunately, at the same time that the 
number of failures that injure people has been decreasing, the 
number of significant failures that dump products into the 
environment and damage property is increasing, as dramatically 
shown by the recent spill of crude oil into the ocean near 
Santa Barbara, and the second spill in just a few years of 
crude oil into the Yellowstone River. This increase in the 
overall significant failure rate shows that while the focus 
today maybe on PHMSA, ultimately, the companies that own and 
operate these pipelines are the ones that need to be held 
responsible for their failures.
    PHMSA has in play a number of significant rulemakings that 
may very well address many of the key issues that were asked to 
address in the 2011 Act; expansion of integrity management, 
leak detection, automated shut-off valves, gas gathering lines, 
excess flow valves, depth of burial of stream crossings, and 
verification of maximum allowable operating pressure. We say 
these issues may be addressed because at this point we really 
don't know. While PHMSA has started the rulemaking process for 
many of these issues, for the most of these items no actual 
rule or proposed rule has been produced.
    Some of these efforts started well over 4 years ago, and 
the exact nature of the hold-up is unclear. We ask that you 
help break this logjam of delay, and if that is not possible, 
Congress should include these specific rules in the statute as 
part of the upcoming reauthorization.
    Congress also asked for non-rulemaking studies and actions 
in the 2011 Act, which also have not been accomplished. The 
areas we are most concerned with include the available--
availability of meaningful facility response plans, maps of 
high consequence areas, a study of the sufficiency of 
regulations for transport of diluted bitumen, report on 
excavation damage, and an NTSB-requested audit of the Integrity 
Management Program.
    The report of gathering lines was recently submitted, but 
the gathering line issue is of particular importance to us 
since we see thousands of new miles of gas gathering lines 
going into the ground every year, with the majority of them 
being completely unregulated.
    With the large increase in new pipeline infrastructure in 
some parts of the country, the aging infrastructure in need of 
replacement in other areas, and increased complexity of risk-
based regulations, we were happy to see Congress provide a 
significant increase in PHMSA's budget for fiscal year 2015. 
This budget increase will allow PHMSA to add an additional 100-
plus new positions, targeted inspections and enforcement, as 
well as more adequately compensating the states for their 
pipeline safety programs. It is now your job to ensure that 
PHMSA effectively expands and manages this increased workforce 
in ways that help decrease the recent uptick in significant 
pipeline safety failures.
    As reauthorization of the National Pipeline Safety Program 
begins later this year, we would support a straight 
reauthorization of the current program to allow PHMSA to 
finally produce all the rules and reports previously requested, 
and address the long list of recommendations from the NTSB. For 
such a straight reauthorization to be successful, Congress 
needs to remain actively involved in oversight to ensure the 
Administration is doing the things they have been charged with.
    Thank you again for letting me testify today.
    [The prepared statement of Mr. Weimer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Whitfield. Well, thank you.
    And at this time, I would like to introduce Mrs. Capps to 
introduce our final witness.
    Mrs. Capps. Mr. Chairman, thank you for giving me this 
privilege. And it is an honor to welcome you to our panel and 
to our discussion today Dianne Black, who is Assistant Director 
of Planning and Development for the County of Santa Barbara. 
And I know that she has worked for the county for 30 years, and 
in that time, has had a lot to do with various regulations 
having to do with pipeline safety, and in her current role she 
has been in the middle of all the spill recovery and response 
efforts, as well as pipeline safety having to do with our most 
recent incident on the Gaviota Coast.
    Mr. Whitfield. Well, thank you. And you are recognized for 
5 minutes, Ms. Black.

                   STATEMENT OF DIANNE BLACK

    Ms. Dianne Black. Thank you. Good afternoon, Chairman 
Whitfield, and other members of the committee. Thank you for 
inviting me to testify today. My name is Dianne Black, I am the 
Assistant Director of the Planning and Development Department 
for the County of Santa Barbara in California.
    I have been involved in the emergency response, permitting, 
and recovery for the Refugio oil spill, which was the result of 
a ruptured pipeline onshore in our county. I have overseen the 
permitting of oil and gas facilities in the county for nearly 
20 years, and I have been involved in other oil spill 
responses, including the Torch oil spill from Platform Irene in 
1997. I appreciate being here to share the experiences of Santa 
Barbara County in the review and permitting of oil and gas 
projects and associated pipelines.
    Now the disclaimer. Within the Refugio oil spill response, 
I may be a decision-maker again for either emergency permits or 
other types of permits, and if that occurs, I will need to 
approach each permit application on a case-by-case basis. As a 
practical matter, that means that today I can provide you with 
general information, but I can't discuss how I might act on an 
application without reviewing it and reviewing the public 
comment associated with it.
    With respect to the pipeline in Santa Barbara County that 
recently failed, the County of Santa Barbara entered into a 
settlement agreement with Celeron Pipeline Company in 1988 
concerning the presumption that the county is preempted by 
federal law from regulating the design and operation of that 
pipeline. That precluded the county from inspecting operations 
by, and most permitting of, what is now known as the Plains All 
American Pipeline, the line central to the Refugio spill.
    For the past decade or more, the county has not--to oil 
company applicants, the construction and safety systems 
required for inter and intrastate pipelines. Instead, 
subsequent to changes in federal law in 2002, the county has 
evaluated oil and gas projects, including associated pipeline 
systems, in their entirety as is required under the California 
Environmental Quality Act. The Federal Pipeline Safety 
Improvement Act of 2002 does not preempt local jurisdictions in 
California from their obligations under CEQA.
    Working with oil company applicants, this has resulted in 
oil companies in Santa Barbara County routinely including 
state-of-the-art leak detection and spill prevention 
technology, including automatic shut-off systems in their 
project descriptions, which are then analyzed under CEQA. 
Pipeline systems which include automatic shut-off systems 
minimize the potential impacts from oil spills, including 
biological hazardous materials and risk, air quality, and 
recreational impacts.
    Within the CEQA process, the County of Santa Barbara does 
not dictate what equipment oil companies must use in their 
pipelines in order to minimize impacts from oil spills. Rather, 
it is the oil companies themselves, through their own 
engineers, who determine what technology to build into pipeline 
projects in order to minimize impacts from spills. Automatic 
shut-off systems rely on pipeline sensors which detected 
changes in the pressure and flow, which indicate when there may 
be a problem in the pipeline. When pressure or flow anomalies 
are detected, the system automatically shuts down the pumps and 
valves associated with the pipeline to limit the potential 
release of oil. Automatic shut-off systems are distinguished 
from remotely-operated systems by the fact that automatic shut-
off systems do not require human action, decision-making, or 
intervention to shut down the pipeline system. In other words, 
there are preset parameters which, if triggered, result in the 
pipeline system being automatically shut down without any human 
action. To be clear, the Plains All American Pipelines, both 
901 and--which was the subject of this spill, and 903, to which 
it connects, do not have automatic shut-off systems. With the 
exception of the Plains pipelines, all of the major 
transmission pipelines in the county are equipped with 
automatic shut-off systems. These include all the pipelines 
that transport oil and gas from the offshore platforms to 
facilities in Santa Barbara County, and you can see those on 
the map that I provided for the record.
    Additional pipelines within the county that are equipped 
with automatic shut-off systems include--the map that is on the 
screen, include line 96, which transports oil from the Ellwood 
Onshore Facility to Las Flores Canyon. Line 300, the onshore 
length of the pipeline from Platform Irene to the Lompoc Oil 
and Gas plant, and on to the Santa Maria Refinery. The Sisquoc 
Pump Station, which transports oil from the Sisquoc Pump 
Station to the Santa Maria Pump Station, and a permitted but 
not yet constructed pipeline in northern Santa Barbara County. 
Again, all of these automatic shut-off systems were 
incorporated into the project description for individual 
projects by oil company applicants prior to environmental 
review.
    That concludes my prepared comments, and I would be happy 
to answer questions.
    [The prepared statement of Ms. Dianne Black follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    
        
    Mr. Whitfield. Well, thank you, Ms. Black. And thank all of 
you for your statements.
    And I will recognize myself for 5 minutes of questions. Ms. 
Black, before you came today and listened to the testimony of 
Ms. Cummings, were you aware that 16 of the 42 safety standards 
in the 2011 bill had not had final regulations issued? Were you 
aware of that before?
    Ms. Dianne Black. Mr. Chair, I was aware, but only most 
recently had I become aware of that.
    Mr. Whitfield. Because of this bill, all right.
    Ms. Dianne Black. Right.
    Mr. Whitfield. Well, do any of you have any conclusions 
yourself as to why PHMSA has been not able to complete these 
safety standards? OK. All right.
    Mr. Wise, on gathering lines, I know MSHA does not require 
regulations of of gathering lines, but some states have decided 
to regulate those. Has Georgia taken action on that or----
    Mr. Wise. No, sir, because for the most part, we are not 
the beneficiary of the opportunity to have gathering lines. We 
are----
    Mr. Whitfield. Right.
    Mr. Wise. We are not a fracking state.
    Mr. Whitfield. Yes.
    Mr. Wise. But we do think it is important. And again, as I 
said in my summary, that it is about safety or efficiency or 
both, and that if you are going to have pipeline safety, that 
it is important that gathering lines could and should be 
included in the states choose to enact that level of 
regulation.
    Mr. Whitfield. Yes. Mr. Santa, do you or Mr. Bradley or Mr. 
Black have any comments on gathering lines in general?
    Mr. Santa. Mr. Chairman, many of our associate operators--
INGAA represents the operators of natural gas transmission 
pipelines, in particular interstate transmission pipelines. We 
do not represent the gathering segment of the industry, so 
probably that question is best directed to those who represent 
or are in that segment.
    Mr. Whitfield. OK. Do you have any additional comments you 
would like to make about it, Mr. Black?
    Mr. Andrew Black. Well, oil gathering lines are regulated 
to some extent by PHMSA if they are in a non-rural setting, if 
they cross an environment, an unusually sensitive area, or 
exceed a certain diameter.
    Mr. Whitfield. Yes.
    Mr. Andrew Black. So more liquid is gathering regulations.
    Mr. Whitfield. Do any of you have any idea what percent of 
all the pipelines in America have these automatic shut-off 
valves in them? Does anybody have any idea on that? OK. Do you, 
Mr. Weimer, have any ideas on that? OK.
    They are not required, and I know that MSHA has conducted a 
study on this, and I guess as a layman you would think that 
this would be of benefit, but I keep hearing from technical 
people that it is not always a benefit. Would anyone have a 
comment on that? Yes, Mr. Black.
    Mr. Andrew Black. Liquid pipeline operators recommend and 
widely use automated remotely operated shut-off valves so that 
a trained control room operator can deploy that valve as part 
of a controlled shut-down of a pipeline. Long-haul, high 
pressure, liquid pipeline operators generally do not use 
automatic shut-off valves and don't recommend it because of the 
pressure surge that can be created from a quick shut-off of an 
automatic valve that is not part of a planned shutdown.
    We have analyzed and found nine releases in the past that 
are because of conditions similar to an automatic shut-off 
valve shutting. Found one rupture that put 4,000 barrels of 
refined products out on the right-of-way, that was caused 
because of conditions like automatic shut-off valves. So in 
liquids, long-haul, high pressure pipelines, automatic shut-off 
valves are not recommended.
    Mr. Whitfield. Now, corrosion of pipelines is a major 
concern, correct? And it is my understanding that in different 
geographical areas, there are different amounts of corrosion. 
Is that true or is that not true?
    Mr. Santa. Yes, Mr. Chairman, that is true because a lot of 
it has to do with the environment----
    Mr. Whitfield. Yes.
    Mr. Santa [continuing]. In which the pipeline is located, 
the soil, things of that nature.
    Mr. Whitfield. And I have heard that in the Santa Barbara 
area that that is prone to a lot of corrosion there. Would 
anybody be able to confirm that or not? OK.
    OK, now, would you agree--all of you would agree that 
pipelines still is the safest way to transport this material. 
Is everybody in agreement with that?
    Mr. Wise. Yes, sir. And clearly, and as I have directed in 
our state, that we have had an aggressive replacement of bare 
steel and cast iron, and so where we had a very safe program to 
begin with, it is even safer today. And the One-Call Program 
has made it continue to be safer.
    Mr. Whitfield. OK.
    Mr. Wise. But it is an extraordinary delivery process.
    Mr. Whitfield. Right.
    OK, Mrs. Capps, you are recognized for 5 minutes.
    Mrs. Capps. Thank you. I want to thank all the witnesses 
for being here today and for your testimony, and particularly, 
of course, my constituent coming all the way from California, 
and the fact that she testified in the state panel just last 
week on this topic. And in the wake of the Plains oil spill on 
May 19 on our shoreline, there has been a lot of discussion 
about the fact that the Plains All American--we have touched on 
it already, the Plains All American Pipeline is not equipped 
with an automatic shut-off system. And when questioned about 
this, that particular company echoed the longstanding industry 
position that such systems are not feasible for oil pipelines, 
yet Santa Barbara County has demonstrated this claim is not 
true.
    So, Ms. Black, you explained in your testimony that there 
are numerous pipelines in Santa Barbara County that employ 
automatic shut-off systems and state-of-the-art leak detection 
technologies. Would you describe a few of the projects 
currently using these advanced safety systems in our county?
    Ms. Dianne Black. I went over those very briefly in my 
testimony, but I will----
    Mrs. Capps. I know----
    Ms. Dianne Black [continuing]. Repeat it----
    Mrs. Capps [continuing]. But----
    Ms. Dianne Black. I will repeat it a bit more slowly and 
emphasize that when I talk about automatic shut-off systems, I 
really mean the whole system. So I have heard the testimony 
from oil company representatives that they feel it is not the 
best practice, and that there is some risk involved. That has 
not been our experience. We have looked at them as a system 
where the pump is shut off and then valves are shut off 
sequentially. So I think we really have to talk about it as a 
system rather than valves.
    So in Santa Barbara County, in addition to the pipelines 
that come from the platforms and have shut-off systems, we have 
several pipelines, most recently line 96, which is associated 
with the Venoco's Platform Holly, transports oil from the 
Ellwood Onshore Facility to Las Flores Canyon, and then ties 
into the Plains All American Pipeline. That has an automatic 
shut-off system. Line 300, which is the onshore length of 
pipeline from Platform Irene to the Lompoc Oil and Gas Plant, 
and then on to the Santa Maria Refinery----
    Mrs. Capps. Yes.
    Ms. Dianne Black [continuing]. Has an automatic shut-off 
system. The Sisquoc Pipeline which transports oil from the 
Sisquoc Pump Station to the Santa Maria Pump Station, so pretty 
much onshore oil, also has an automatic shut-off system. And 
then we most recently permitted the Foxen Petroleum Pipeline, 
which was permitted with an automatic shut-off system.
    Mrs. Capps. And I would like to ask for these to be 
submitted for the record, Mr. Chairman. And just to follow up 
briefly, has the use of any of these advanced systems caused 
any secondary ruptures or other serious problems in the county?
    Ms. Dianne Black. No, not in our entire history with them.
    Mrs. Capps. OK. And oil development continues to thrive in 
the area, am I correct on that?
    Ms. Dianne Black. It does, as you can see from the map, 
although offshore oil has somewhat declined----
    Mrs. Capps. Right.
    Ms. Dianne Black [continuing]. Because of resources.
    Mrs. Capps. And no pipeline operators have gone bankrupt 
due to the cost of installing these systems, to your knowledge?
    Ms. Dianne Black. No.
    Mrs. Capps. OK. There has also been some confusion 
regarding the definition of the term automatic. Plains and 
other companies often refer to their systems as automatic, even 
though a human operator must still decide to activate. That was 
the case with Plains. To clarify, the automatic shut-off system 
installed in Santa Barbara County, the ones you were 
describing, require no human intervention, is that correct----
    Ms. Dianne Black. That----
    Mrs. Capps [continuing]. Just to be clear?
    Ms. Dianne Black. That is correct.
    Mrs. Capps. And can you briefly explain how these advanced 
systems work compared to those on the ruptured Plains pipeline? 
Why are they so much more effective at detecting and stopping 
spills?
    Ms. Dianne Black. They are more effective because they 
don't require human interaction or intervention. They shut off 
based upon preset parameters, so an operator isn't having to 
make a decision that----
    Mrs. Capps. All right.
    Ms. Dianne Black [continuing]. An actual parameter has been 
reached.
    Mrs. Capps. Now, here is the other thing, and maybe this 
goes to CEQA too, our local program. While the local companies 
technically voluntarily install the more advanced systems, it 
is clear that the law, both state and federal, have played an 
important role. Can you elaborate on this--it sets the standard 
and everybody kind of gets onboard just because of the 
consequences of not doing so. So there is a self regulatory 
agency as well. What is the policy mechanism that pushed these 
companies to proactively include the state-of-the-art 
technologies in their project?
    Ms. Dianne Black. Well, the California Environmental 
Quality Act is a very powerful tool in California. The County 
of Santa Barbara reviews the whole of every project, whether it 
is something that is under our direct jurisdiction or not, we 
review it. And so pipeline companies in Santa Barbara County 
include in their project descriptions automatic shut-off 
systems to mitigate upfront the impacts of a potential spill.
    Mrs. Capps. I have used up my time, Mr. Chairman. Thank you 
very much.
    Mr. Latta [presiding]. The gentlelady's time has expired 
and she yields back.
    And I would also like to thank our panel today for being 
here. It has been very informational.
    Mr. Wise, I think you were here for the testimony when Ms. 
Cummings was testifying, and she noted that there are issues 
with getting information from the states in a cost-effective 
way. Would you speak to the data you worked to provide to 
PHMSA?
    Mr. Wise. I am sorry, sir?
    Mr. Latta. Ms. Cummings noted that there are issues with 
getting information from the states and getting that 
information in a cost-effective way. Would you be able to speak 
to the data that you worked to help provide to PHMSA in their 
mapping and everything else?
    Mr. Wise. In my role as a commissioner, it is a state 
commission, we believe that our office of pipeline safety is 
extraordinary, and they do a great job of getting the 
information that is requested. And when there is an issue, 
PHMSA relates it to our staff and then we respond very quickly 
to that. And so I don't--I believe that we have a good working 
relationship, that they acknowledge the role that we played in 
Georgia to have a very safe delivery system, and I would be 
surprised to hear that, at least in my state, and haven't heard 
it from the other states, that there is a problem with 
information coming from the state commissions.
    Mr. Latta. Let me ask, also in your testimony that--you 
said that PHMSA has not updated the National Pipeline Mapping 
System including the identification of the high consequence 
areas. Could you go into that and the high consequence areas, 
and maybe what should be done?
    Mr. Wise. Well, again, there is going to be the high 
deliverability, and it is an issue that clearly is important to 
the states and the regulators, and I think it was a question 
that was asked of one of the representatives--the members today 
about releasing that information to the public, and we are not 
knowledgeable of some of this mapping to this point, and 
believe it should be released.
    Mr. Latta. Well, thank you.
    Mr. Black, how do pipeline operators use the inline 
inspection of so-called smart pig technology to find problems 
in the pipelines?
    Mr. Andrew Black. Yes, the smart pig device travels inside 
of the pipeline, gathering information about the pipeline as it 
goes. It uses technology to detect wall thickness, and 
different technologies to determine potential cracks. And then 
the information that is provided from the onboard computer that 
has traveled through the pipeline is reviewed. That is raw 
data, it is terabytes of it, that third party experts, as 
Director Cummings said, then review and they determine whether 
the information that has been provided is just about the 
natural features of the pipe or is about something that an 
operator needs to consider addressing. And importantly also, 
the smart pig vendor and the pipeline company will uncover a 
section of the pipeline that has been tested and review the 
results of the inline inspection to field inspections to 
calibrate the accuracy of the pig. This has succeeded in 
reducing corrosion-caused incidents by more than 76 percent 
over the last 15 percent. And corrosion was really the reason 
for modern integrity management and the advent of this inline 
inspection technology. It has been proven successful. Got a lot 
of R&D right now to improve the ability of the machines to 
sense more, and then the analytics of the people to determine 
what the machines are telling us.
    Mr. Latta. Thank you.
    Mr. Santa, could you talk more about the 9-point pipeline 
safety action plan you mentioned, and what INGAA has done to 
educate the public about the safety measures that are 
undertaken with pipeline projects?
    Mr. Santa. Yes, sir. In the wake of the San Bruno tragedy 
in 2010, the INGAA Board committed to a set of voluntary 
commitments to improve pipeline safety. As I said in my 
testimony, it was anchored in the goal of zero incidents as the 
goal. That 9-nine program includes many of the elements that 
were addressed in the 2011 pipeline safety reauthorization, as 
well as some of the relevant NTSB recommendations. I won't go 
through all of the 9 points. Two of them to point out is a 
commitment to expand the use of integrity management, the--
consequence areas. Another one is to perform the testing of 
pipe where it is necessary to verify the material strength of 
that pipe. We have engaged in an extensive outreach with 
pipeline safety stakeholders to keep them abreast of the 
progress that we are making there. Pipeline companies as part 
of their outreach to the public along their corridors 
communicate this, and also in connection with new pipeline 
projects, part of the outreach to the public includes 
addressing the safety of these systems.
    Mr. Latta. Well, thank you very much.
    And I am going to yield back, and recognize the gentleman 
from California for 5 minutes.
    Mr. McNerney. Thank you. Thank you, Mr. Chairman.
    I want to thank the panel. Very informative. I only have 5 
minutes of questions, so I am a little disappointed.
    Mr. Cummings, I am going to start with you. I asked--I mean 
Mr. Weimer. I asked Ms. Cummings to describe the rulemaking 
process. Her answer was very roundabout, very hard to 
understand. Is it a transparent process and is there a good 
deal of room for improvement in that process?
    Mr. Weimer. Yes, we think there is a good deal of room for 
improvement. Parts of it are transparent when they do the 
advance notice of proposed rulemaking, and the notice of 
proposed rulemaking. It opens it up for public comments, and 
all those public comments are transparent. Where it kind of 
disappears from that transparency is in the interim. Like on 
the liquid rule that was drafted almost 5 years ago, they went 
through an advanced notice of proposed rulemaking, took lots of 
public comments, supposedly went back and then wrote a proposed 
rule, and then it disappeared into the black box somewhere 
between the Secretary's office and the White House.
    Mr. McNerney. Yes.
    Mr. Weimer. And that part of the process of where that is 
and why it has taken so long is, I think, why everybody up here 
has been frustrated.
    Mr. McNerney. And the agency wouldn't have any control over 
that.
    Mr. Weimer. Well, I think once PHMSA writes the rule and 
sends it up, it's over their head. So it is above their pay 
grade at that point.
    Mr. McNerney. Well, you mentioned that Congress should 
expedite the rulemaking or write rules into the legislation. 
Now, in my opinion, that would open up a lot of opportunity for 
legal action, for law suits. Wouldn't that be the case?
    Mr. Weimer. Well, I think it is probably wise that you are 
not pipeline engineers and experts that--so drafting rules 
might not be the best for Congress, but there are instances 
where that has been very successful. In the 2006 Act, you put a 
rule right in there for excess flow valves that led to millions 
of excess flow valves being put on the new houses being 
constructed around the country that the NTSB says has saved 
lives.
    Mr. McNerney. Yes.
    Mr. Weimer. And so there are a few instances where specific 
rules that are pretty well clarified can be put right into the 
statute.
    Mr. McNerney. Well, thank you. Well, we are seeing an 
abundance of natural gas production now in this country, do we 
have the capacity to manage that safely with minimum leakage 
and minimum opportunity for accidents?
    Mr. Weimer. Well, I think it is a good step forward. The 
new budget that PHMSA was given to hire more inspectors and 
enforcement folks, and to help support the states in that too. 
I think the piece that is missing is the gathering lines that 
has been talked about. When Ms. Cummings talks about 2.6 
million miles of pipelines in this country, she isn't including 
the 2 or 300,000 miles of gathering lines that are completely 
unregulated----
    Mr. McNerney. Yes.
    Mr. Weimer [continuing]. In most all states.
    Mr. McNerney. OK, thank you.
    Mr. Black, I am going to follow up on the smart pig 
question. Do you think that is the best technology that is out 
there for inspecting pipes?
    Mr. Andrew Black. Of the methods of conducting integrity 
management, we have found inline inspection or smart pigs to be 
the best. So now the research projects are about how to make 
those pigs more capable, and to improve our capability to 
process that information. We find the hydrostatic pressure 
testing to be very helpful when commissioning a new pipeline, 
for understanding if it is ready for operation.
    Mr. McNerney. Is there any technology out there that you 
think is going to make it easier or cheaper to conduct testing?
    Mr. Andrew Black. Well, it is not getting cheaper to use 
these. The pigs are getting more specialized. Whereas there 
used to be one type of pig that did one type of data gathering, 
now operators are using multiple types of----
    Mr. McNerney. Yes.
    Mr. Andrew Black [continuing]. Technologies. That means 
multiple types of inspections or several in the same train 
with--inside a pipe. That is where technology is growing, and 
we are spending a lot of money on research and development and 
a consortia to try to improve that record further and drive 
down the number of incidents.
    Mr. McNerney. OK. Mr. Santa, you mentioned that there is a 
need for consistency between voluntary actions and rules. How 
do you find the cooperation between the agency and the private 
sector?
    Mr. Santa. Mr. McNerney, as I mentioned in my testimony, 
INGAA and its members have engaged with PHMSA and other 
stakeholders following the 2011 reauthorization, and we found 
that to be a good and productive process, and we believe that 
our input will be reflected in the rules when they are 
proposed. By the same token, we need that certainty that comes 
with those proposed rules, and also as I noted, given the 
delays that have occurred and that may well continue, getting 
some items addressed in the reauthorization we think would be 
constructive.
    Mr. McNerney. I just want to say, Mr. Wise, I detected a 
lot of frustration in your testimony about unpublished 
information that is out there, the delays, and I know you don't 
have time to answer on my 5 minutes, but I certainly appreciate 
your comments.
    Mr. Wise. Thank you, sir.
    Mr. McNerney. Thank you, Mr. Chairman.
    Mr. Whitfield. At this time, recognize the gentleman from 
Virginia, Mr. Griffith, for 5 minutes.
    Mr. Griffith. Thank you all very much for being here.
    I asked the earlier panel about collocation and if they 
knew of any safety concerns with locating within the same 
easement, and I will open that up to any of you all. Do you all 
know of any safety concerns, mainly talking about natural gas? 
Two pipelines, one in my district, one in just outside of my 
district, are being built in Virginia, are being proposed in 
Virginia as we speak. Anybody know why they can't collocate 
with other gas pipelines or in the same easement footprint? Any 
safety reasons anybody knows about? Mr. Bradley?
    Mr. Bradley. Yes, I will take a shot at answering from the 
perspective of the natural gas distribution companies. We are 
in the streets with the water departments, with the sewer 
departments, and many times our infrastructure went in the same 
time. So you pick a year, 1950, 1940, so we are back together. 
We try to go in together to make sure that we minimize the 
impact on the town, the neighborhood, and we keep costs down by 
sharing some of the restoration, repave kind of costs. With 
that being said, it is still important for us to make sure that 
there is some separation that is acceptable between the 
infrastructure.
    So we try to leverage the proximity in local build-up 
communities, and we do go in, not in the same trench but in the 
same street, we just keep the right separation.
    Mr. Griffith. Thank you very much. I appreciate it. Anybody 
else want to----
    Mr. Santa. I mean there are instances where natural gas 
transmission pipelines are collocated with other 
infrastructure, for example, sometimes the same corridors as 
electric transmission lines. There are issues there that need 
to be addressed in terms of the cathodic protection of the 
pipelines and things of that nature. So one needs to be mindful 
of that. But I think pipeline operators look for opportunities 
to use corridors that already have been used to avoid the 
disruption and the effects on the communities and the 
environment.
    Mr. Griffith. And assuming that there isn't a safety 
concern, that would be a wise path, would it not?
    Mr. Santa. For purposes of minimizing disruption, it would 
be, yes.
    Mr. Griffith. Absolutely. Appreciate that very much.
    Mr. Bradley, do local distribution companies pay user fees 
for the transmission lines?
    Mr. Bradley. By way of paying for the transmission service, 
we do----
    Mr. Griffith. Yes, sir.
    Mr. Bradley [continuing]. Pay user fees indirectly.
    Mr. Griffith. All right.
    Mr. Bradley. Yes.
    Mr. Griffith. And you mentioned in your testimony that 
there are several regulations that have just been implemented 
and need time to work before assessing whether additional 
changes need to be made to enhance safety. Can you tell me what 
some of those regulations are?
    Mr. Bradley. Could you say that again?
    Mr. Griffith. Yes, sir. You said in your testimony there 
are several regulations that have recently or just been 
implemented and need time to work before assessing whether 
additional changes need to be made to enhance safety.
    Mr. Bradley. Yes, thank you. So we are watching the 
regulations around construction. There is a regulation that was 
just released around construction around new infrastructure. 
So, for example, there is a lot of gas main being installed. 
There is a drive for it, not only from a safety perspective, 
but from a brand new service to customers perspective. And in 
doing that, a number of our local distribution companies just 
aren't staffed for it, so we contract the work out. We want to 
make sure that the contractors are qualified effectively to do 
the work. There is a ruling out that we are reviewing right now 
that speaks to that. We want to make sure that it is going to 
hit the need that is required for this.
    Mr. Griffith. All right. And can you tell me how data is 
gathered and shared among the industry over time that might be 
used to enhance regulations in the future----
    Mr. Bradley. Yes.
    Mr. Griffith [continuing]. Or help us figure out what we 
ought to do?
    Mr. Bradley. HEA member companies are involved in a number 
of activities that support that, so we meet frequently for best 
practice reviews. We like to check in with each other to figure 
out who is doing whatever it is best. We look at benchmark 
data, we see who has that figured out, whether it is OSHA 
recordables, whether it is pipeline incidents, we bring people 
in to meet. One of the big issues that you have heard about is 
underground damages. So we want to understand the best 
performer relative to hits per 1,000 ticket calls. We want to 
bring those in and talk to them. We do that frequently at the 
American Gas Association. In addition, we do peer reviews--
peer-to-peer reviews with our companies.
    Mr. Griffith. Well, I do appreciate that.
    I do have another safety question one of my constituents 
has asked, because we are dealing with these pipeline issues, 
and particularly large natural gas pipelines. Right now, they 
are being told it is safe to drive over them when they put them 
in the ground. They are being told they can drive over it. Does 
anybody know of any reason why that would be a problem, because 
a lot of my folks are going to harvest timber once every 35 to 
50 years. Would that be a problem for a timber truck to drive 
over one of these, or a fully loaded cattle truck?
    Mr. Santa. Mr. Griffith, I think those kind of issues would 
be addressed in the design of the pipeline, and there is a very 
extensive review of that that occurs at the Federal Energy 
Regulatory Commission, and also as part of that there is the 
application of the PHMSA pipeline safety rules during that 
process. So I do not think there is any reason for undue 
concern about that.
    Mr. Griffith. All right. I appreciate it very much. And I 
yield back.
    Mr. Whitfield. The gentleman yields back.
    At this time, recognize the gentleman from New York, Mr. 
Tonko, for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    Mr. Weimer, your testimony points to a recent National 
Transportation Safety Board report on the integrity management 
of gas transmission pipelines in high consequence areas. You 
list seven areas that the NTSB identified for improvement in 
these system requirements. Has PHMSA acted on any of these 
recommendations at this point?
    Mr. Weimer. No, I--they are fairly new regulations and 
PHMSA hasn't acted on them. It is another one of those things 
that may be in some of the regulations they are working on. 
There was a lot of discussion as part of the advanced notice of 
proposed rulemaking on both the liquid and the gas side about 
strengthening some of the integrity management rules. So some 
of those things may be acted on, but they haven't been acted on 
yet.
    Mr. Tonko. Thank you. And there are several major natural 
gas pipeline projects, either proposed or underway, that will 
pass through my given congressional district. These projects 
are quite unpopular in the communities that will be hosting 
them. And my constituents have raised a number of concerns 
about these projects, including the safety of the pipelines and 
the associated facilities. Compression stations, as an example. 
Also because these projects will pass through small 
communities, my concern is that they do not come under the high 
consequence area designation. For anyone impacted by an 
accident, there is no such thing as a low consequence area. And 
it sounds as if the Integrity Management Program isn't 
achieving the additional safety we would all like to see.
    So what standards, materials, and technologies are 
available to ensure greater safety of pipelines and their 
associated facilities?
    Mr. Weimer. Well, I think the Integrity Management Program 
has achieved some of the things that it was set out to do, and 
the recent NTSB study that I had mentioned paints that picture, 
that for some time dependent flaws like corrosion, it has been 
pretty successful, and NTSB says that in those rural areas that 
are not currently covered under integrity management or those 
high consequence areas, expansion of those types of 
technologies into those areas would help. The problem they saw 
was that companies aren't really integrating other types of 
risks into their integrity management very well. It has helped 
with some things, but not across the board.
    Mr. Tonko. Yes. And your testimony indicates that 
significant incidents are increasing on pipelines in high 
consequence areas, and apparently, excavation is one of the 
main causes of significant pipeline incidents. So I gathered 
from Mr. Cummings' response to my question to her about--or Ms. 
Cummings' response to my question to her about whether PHMSA 
has accurate and complete maps of pipeline locations, that the 
answer is no.
    Mr. Weimer. Yes, and that is one of the rules they are 
working on, strengthening that National Pipeline Mapping 
System. The current plus or minus factor on a lot of that maps 
is plus or minus 500 feet. So the pipeline could be, you know, 
on the other side of the road or a different side of the 
neighborhood than where----
    Mr. Tonko. And----
    Mr. Weimer [continuing]. It shows on their maps.
    Mr. Tonko. And to the impacted communities, that is a 
relevant situation.
    Mr. Weimer. Right, and----
    Mr. Tonko. Yes.
    Mr. Weimer. But the one thing to mention is that those maps 
should never be used for excavation. You know, if you really 
are going to go in and dig, you need to call 811 to get a 
really accurate location of where the pipeline is.
    Mr. Tonko. And I think it is easy to calculate that the 
efforts of PHMSA to communicate with local authorities about 
how to avoid excavation damage is handicapped by that lack of 
information. Frankly, this is shocking. At a minimum, we should 
know the location of the existing networks. Would this 
information help to avoid the problems we are seeing with 
excavation damage to pipelines?
    Mr. Weimer. Well, I think more accurate maps would help 
give people an idea of where the pipelines are in their area 
but really the way to get at the excavation damage is just for 
everybody to really understand that 811, Call Before You Dig. 
That is the accurate system that is going to really keep----
    Mr. Tonko. And is it a resource problem when it comes to 
accurate mapping, or are there other barriers that face us in 
obtaining or organizing this information?
    Mr. Weimer. Yes, I think to some degree it is a resource 
problem. I have heard the industry talk about how expensive it 
would be to go out and GIS their pipelines to more accurate--
lots of companies have already done that, but other companies 
haven't.
    Mr. Tonko. Did the states do a better job?
    Mr. Weimer. The states--this is really a federal regulation 
of the NPS mapping, so it falls on PHMSA.
    Mr. Tonko. Thank you very much.
    Mr. Chairman, I see I have exhausted my time. I yield back.
    Mr. Whitfield. Thank you, Mr. Tonko.
    We were waiting for Mr. Green, who I was told was on his 
way.
    Mr. Weimer, one other question I would just like to ask 
you, you had mentioned in your opening statement that the 
public--the Pipeline Safety Trust was funded originally through 
the Department of Justice in a court case. I was curious, your 
funding today, is that through private donations or how is that 
done today?
    Mr. Weimer. Well, luckily, the Board members of the 
Pipeline Safety Trust, who were the families originally that 
had lost their children in that explosion, invested that money 
very wisely, so we received $4 million from the Justice 
Department to create the trust. I think we have $4.4 million of 
it today, so a large degree we live off that wise investment, 
and we also do get some grants, and we run an annual national 
conference that brings in some money also.
    Mr. Whitfield. Excellent. OK, thanks.
    Mr. Green has appeared. So at this time, I would like to 
recognize the gentleman from Texas for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman.
    Commissioner Wise, PHMSA has not published any information 
pertaining to valves, integrity management, or leak detection. 
Can you explain what steps the Georgia Public Service 
Commission can and has taken to address these issues without 
PHMSA action?
    Mr. Wise. We are very interested both in my state and the 
National Association on this information. We think it is vital 
to understand the impact and a potential rate structure impact 
on the LDCs, and the customers that pay their bills.
    Mr. Green. Yes. OK. In your testimony you mentioned 
gathering lines. Can you explain your position on the issue of 
what PHMSA needs to do to fulfill its responsibilities?
    Mr. Wise. We believe the review should be left to the 
individual states as to the level of scrutiny and inspection of 
gathering lines. PHMSA should respond to that request. Georgia 
is not going to be one, we don't have gathering lines, but I 
think a number of states, for safety and integrity of the 
system, we should have some level of review.
    Mr. Green. OK. Obviously, in Texas we have no shortage of 
gathering lines.
    Mr. Weimer, it seems that PHMSA is focused on public 
awareness but hasn't accomplished much by way of regulation. It 
seems that the industry has done quite a bit to address 
pipeline safety even without PHMSA. What are your thoughts on 
the industry actions?
    Mr. Weimer. Yes, public awareness has been a hard nut to 
crack and the industry has spent tens of millions of dollars on 
it. There are regulations that require the industry to reach 
out to a variety of stakeholders, the public, local public 
officials, or emergency responders, but there is no requirement 
on the other end that the local governments pay attention. So 
to some degree, the industry has been pushing out a lot of 
information, but it is falling in the hands of people that are 
way too busy already and it is not being paid attention to 
enough. Somehow, we need to learn to message better to all 
those local governments so they pay attention instead of 
waiting until something happens, like in Santa Barbara, and 
then all of a sudden they are paying lots of attention.
    Mr. Green. Well, it is frustrating though because I think I 
have been on the committee for about three or four pipeline 
reauthorizations, and this is, say, 4 years from when we last 
did it and they still haven't gotten most of the requirements 
that we wanted done in 2011. Do you think that two additional 
years would provide PHMSA the appropriate amount to finalize 
these outstanding policies?
    Mr. Weimer. I think it would provide them enough time to 
get most of that done. It sounds like a lot of the new rules 
are about to roll out. Once the rule comes out, there is going 
to be another year for the public--for all the stakeholders to 
comment and for them to redraft the rule, so we are not going 
to really know what is and isn't in these rules for a couple of 
years, one way or another at this point.
    Mr. Green. Yes. Mr. Santa, in your testimony you discuss 
the PHMSA user fee. What benefits would increased assessments 
provide?
    Mr. Santa. Mr. Green, the user fee offsets the cost of the 
PHMSA Program and also is the source of a lot of the funds that 
PHMSA provides to the states in the form of state grants.
    Mr. Green. Yes.
    Mr. Santa. And I know that Mr. Wise in his testimony on 
behalf of NARUC made the case for even more funding there. I 
think the point raised by INGAA in our testimony had to do with 
the equity of the way the user fee is structured by statute, 
that it is collected only from natural gas transmission 
pipeline operators, when in fact, the large majority of the 
funds collected via that fee are used for other purposes. And 
we raised questions as to whether or not this still 
legitimately constitutes a user fee. We pointed out that the 
Senate Appropriations Committee and the Transportation, Housing 
and Urban Development bill highlighted this issue. So I think 
it is an effective mechanism to fund the program, however, the 
equity of it in terms of the collection and the beneficiaries 
is something I think that needs to be addressed both as a 
matter of policy and also to continue to satisfy the law.
    Mr. Green. Would that be something we could do in a 
pipeline safety reauthorization?
    Mr. Santa. Yes, sir, I believe it is. It is something 
that--in that language in the Senate Appropriations Bill, they 
noted that it was something for the authorizing committees to 
address.
    Mr. Green. OK. Thank you, Mr. Chairman.
    Mr. Whitfield. Thank you.
    At this time, I would recognize the gentleman from 
Illinois, Mr. Rush, for 5 minutes.
    Mr. Rush. Mr. Chairman, I am going to be brief.
    I just have a question for Ms. Black.
    Mrs. Black, I want to thank you for being here, and all of 
our thoughts and prayers are with you and the Santa Barbara 
area as you continue to deal with the spill that caused so very 
much damage to your community.
    What was your initial reaction when you heard that Plains 
America, the same owners of the pipeline that ruptured in Santa 
Barbara just 2 months ago, was also responsible for another, 
although smaller, leak in Illinois this past weekend, and are 
you satisfied with the corrective action that PHMSA imposed on 
Plains America? And lastly, do you feel that there is more to 
be done either from the standpoint of information-sharing, 
regulatory authority, additional resources, or any other area 
that could help empower local communities and help prevent 
future disasters?
    Ms. Dianne Black. That was a long question.
    Mr. Rush. Yes, it was.
    Ms. Dianne Black. So I will try to piece it apart and 
answer it.
    Mr. Rush. Yes, ma'am.
    Ms. Dianne Black. Please feel free to follow up if I miss 
pieces of it.
    Mr. Rush. Yes.
    Ms. Dianne Black. So reaction. I felt sorry for the 
community that also suffered. So that was really personal 
reaction.
    In terms of satisfaction with the corrective order, I will 
let you know. It depends on what sort of process is undertaken 
to recommission line 901. I am satisfied that it shut in right 
now. I am satisfied that Plains has not recommissioned line 
903, at least as to the Sisquoc Pump Station. So I am satisfied 
with that right now, but I am concerned about recommissioning 
that line without having the protection systems in place that 
are in place for other pipelines within the county. So I would 
be very satisfied if an automatic shut-off system were put into 
place on that pipeline. And I would be very satisfied to see 
the smart pig results and the interpretation of those results 
to see if there are other issues within the line.
    Mr. Rush. So are you satisfied then with the level of 
responsibility that Plains America assumed and their subsequent 
actions in Santa Barbara, were they strong actions, corrective 
actions?
    Ms. Dianne Black. So the response in Santa Barbara County 
so far has really been clean-up efforts. And yes, I think that 
under unified command, Plains has done a good job of addressing 
clean-up concerns. What we haven't seen yet is the 
recommissioning efforts; what is going to happen when that 
pipeline is put back into service, and what sorts of systems 
will be in place then.
    Mr. Rush. Yes. Thank you very much.
    Mr. Chairman, these witnesses have been in the chair for a 
long time, and you have been in the chair for a long time, so 
in the interest of time I am going to yield back the balance of 
my time.
    Mr. Whitfield. You know what, you are a fine gentleman.
    Mr. Rush. I thought so. I thought so.
    Mr. Whitfield. Well, I want to thank the witnesses for 
being with us today. We do value your input. And as we move 
toward reauthorization, of course, your comments will be 
useful.
    I am also inserting into the record, at the request of Mrs. 
Capps, the corrective action orders from the Pipeline and 
Hazardous Materials Safety Administration to the Plains 
Pipeline Company, without objection.
    Mr. Whitfield. And then we will keep the record open for 10 
days for any additional materials. I know that one of the 
Democratic members had asked to submit some questions, I think, 
to Ms. Cummings, so that will be done as well.
    But thank you all. We look forward to working with you as 
we move forward, and thanks for coming all the way from 
California and Washington State.
    And with that, the hearing is adjourned.
    [Whereupon, at 1:25 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
       

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
